<html>
<title> - ROADMAP FOR A MORE EFFICIENT AND ACCOUNTABLE FEDERAL GOVERNMENT: IMPLEMENTING THE GPRA MODERNIZATION ACT</title>
<body><pre>[Senate Hearing 112-156]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-156
 
                    ROADMAP FOR A MORE EFFICIENT AND
ACCOUNTABLE FEDERAL GOVERNMENT: IMPLEMENTING THE GPRA MODERNIZATION ACT

=======================================================================

                             JOINT HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                THE FEDERAL WORKFORCE, AND THE DISTRICT
                    OF COLUMBIA SUBCOMMITTEE AND THE
                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
 INFORMATION, FEDERAL SERVICES, AND INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
67-636                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisonsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee
                                 ------                                

    SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL 
                WORKFORCE, AND THE DISTRICT OF COLUMBIA

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JOHN ENSIGN, Nevada
                Lisa M. Powell, Staff Director, Majority
             Benjamin Rhodeside, Professional Staff Member
               Rachel R. Weaver, Staff Director, Minority
                   Alan Elias, Legislative Assistant
                Sean Kennedy, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 SCOTT P. BROWN, Massachusetts
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARY L. PRYOR, Arkansas              JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
MARK BEGICH, Alaska                  ROB PORTMAN, Ohio
               John Kilvington, Staff Director, Majority
                     John Collins, Legislative Aide
                William Wright, Staff Director, Minority
                       Steven Hutchinson Detailee
                   Deirdre G. Armstrong, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Carper...............................................     1
    Senator Brown................................................     4
    Senator Johnson..............................................     4
Prepared statement:
    Senator Akaka................................................    43
    Senator Carper...............................................    44

                               WITNESSES

                         Tuesday, May 10, 2011

Hon. Jeffrey D. Zients, Federal Chief Performance Officer and 
  Deputy Director for Management, U.S. Office of Management and 
  Budget.........................................................     6
Hon. Eugene L. Dodaro, Comptroller General, U.S. Government 
  Accountability Office..........................................     8
Robert J. Shea, Former Associate Director for Administration and 
  Government Performance, U.S. Office of Management and Budget...    26
Paul L. Posner, Professor and Director, Public Administration 
  Program, George Mason University...............................    28
Jonathan D. Breul, Executive Director, IBM Center for the 
  Business of Government.........................................    31

                     Alphabetical List of Witnesses

Breul, Jonathan D.:
    Testimony....................................................    31
    Prepared statement...........................................    91
Dodaro, Hon. Eugene L.:
    Testimony....................................................     8
    Prepared statement...........................................    52
Posner, Paul L.:
    Testimony....................................................    28
    Prepared statement...........................................    78
Shea, Robert J.:
    Testimony....................................................    26
    Prepared statement...........................................    73
Zients, Hon. Jeffrey D.:
    Testimony....................................................     6
    Prepared statement...........................................    46

                                APPENDIX

Prepared statement submitted by Senator Mark Warner..............    96
Prepared statement submitted by Representative Henry Cuellar.....    97
Questions and Responses submitted for the Record from:
    Mr. Zients...................................................   100
    Mr. Dodaro...................................................   111
    Mr. Shea with an attachment..................................   120
    Mr. Posner...................................................   129
    Mr. Breul....................................................   133
Background.......................................................   137


                    ROADMAP FOR A MORE EFFICIENT AND
                    ACCOUNTABLE FEDERAL GOVERNMENT:
                         IMPLEMENTING THE GPRA
                           MODERNIZATION ACT

                              ----------                              


                         TUESDAY, MAY 10, 2011

                                       U.S. Senate,
Joint Hearing with the Oversight of Government Management, 
                             the Federal Workforce, and the
                 District of Columbia Subcommittee and the,
     Federal Financial Management, Government Information, 
 Federal Services, and International Security Subcommittee,
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 2:38 p.m., in 
room 562, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee on Federal Financial 
Management, Government Information, Federal Services, and 
International Security, presiding.
    Present: Senators Carper, Pryor, Brown, and Johnson.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Subcommittee will come to order.
    I apologize for running a little bit late. Thank you for 
your patience with me. I am happy to be here with my colleagues 
and all of you. I am especially looking forward to our 
witnesses.
    I think, in bringing the Subcommittee to order, I want to 
say, unfortunately, Senator Akaka of Hawaii, broke two ribs in 
a minor accident at home last week. He is unable to be with us 
to attend the hearing today. His statement and the witnesses' 
answers to his questions for the record will be included in the 
hearing record for today. I understand he is recovering quickly 
and we look forward to seeing him back again soon. He is one of 
my favorite people. We love Senator Akaka around here. We want 
him to be off the DL and back into the game in the starting 
lineup, and we are told he will be very soon.
    But today's hearing will examine the recently enacted 
Government Performance and Results Modernization Act (GPRAMA) 
of 2011 and how progress is being made toward its full 
implementation. This bipartisan legislation, which I sponsored 
with, among others, Senator Akaka, and I want to say Senator 
Voinovich, I think Senator Warner, maybe Senator--was Senator 
Brown a cosponsor? I am not sure. He could have been. Anyway, a 
bunch of us pushed this legislation. In the last Congress, it 
got signed into law. I am grateful to all my colleagues for 
their support and looking forward to how we are doing in its 
implementation.
    Seventeen years ago, Congress passed the Government 
Performance and Results Act (GPRA) to help us better manage our 
finite resources and to improve the effectiveness of Federal 
programs. Given our mind-boggling budget deficits today, there 
has never been a greater need for more informed and effective 
management of taxpayer dollars. Since 1993, agencies across the 
Federal Government have developed and implemented strategic 
plans and have routinely generated a tremendous amount of 
performance data. The question is, have Federal agencies 
actually used their performance data to get better results?
    Producing information, as we know, does not by itself 
improve performance, and experts from both sides of the aisle 
agree that the solutions developed in 1993 did not work as we 
had originally anticipated and hoped. The American people 
deserve and our fiscal challenges demand better results.
    In fact, when the bill was passed in 1993, I was just 
becoming a new Governor, but when the bill was passed in 1993, 
I think it was sort of referred to as the Results Act. They 
wanted the folks in that Administration--we had a new President 
and we had at that time, I think, a Democratic Congress, but 
they were focused on performance and on results, something that 
I think the three of us certainly focus on, results, wanting to 
get things done.
    Vince Lombardi used to say, if you are not keeping score, 
you are just practicing. He said a lot of memorable things. 
That was one of my favorite. He also said, winning is not the 
only thing--no, winning is not everything, it is the only 
thing. But we could probably spend the better part of this 
hearing coming up with his quotes, but I like this one a lot. 
If you are not keeping score, you are just practicing.
    But we have not been doing a very good job of setting clear 
goals for Federal programs, at least for some of them. We have 
not been doing a very good job of keeping score, either, and it 
is time to get into the game and play for real.
    The Government Performance and Results Modernization Act 
brings a strategic Government-wide focus to performance 
management by requiring the Office of Management and Budget 
(OMB) to set Government-wide goals to align programs from 
different agencies to work together to reduce overlap and 
duplication. It also requires OMB to seek majority and minority 
views from Congress on those goals. With an eye toward 
eliminating redundancy within Government, the law requires 
agencies to support Government-wide priorities by linking their 
goals to them and working across party lines to improve the 
efficiency and effectiveness of their work.
    I am pleased to hear that OMB is taking the new law 
seriously. In fact, OMB helped develop the new law, so it is 
especially encouraging that they are also taking it seriously. 
But in early April, OMB Director Jack Lew, along with Deputy 
Director for Management Jeff Zients, who is with us today, 
issued a memo to agency and department heads directing them to 
begin to implement the new law. The memo told agencies to 
submit the name of their Agency Chief Operating Officer (COO) 
to OMB by May 2, and that was last Monday, I think, last 
Monday, and the name of their Agency Performance Information 
Officer (PIO) by June 1. These positions, codified by the new 
law, are crucial to improving the performance of the Federal 
Government.
    The memo also instructed agencies to begin holding data-
driven progress reviews of their goals by the end of June. I 
look forward to hearing from Mr. Zients today about whether 
these timelines will be met and about how many agencies have 
put their Chief Operating Officer into place.
    Finally, the law requires that all the results and 
performance information agencies generate be placed on a single 
searchable Web site. This electronic information would replace 
much of the large performance-related documents agencies 
produce today that often go unread. It will provide the sort of 
transparency and accountability of agency performance that 
Congress and the American people demand. It will also enable us 
to see what is working, to fix what is not, and to make some 
tough decisions about what programs may be duplicative or not 
needed.
    This Web site, known as performance.gov, has yet to be 
launched, and recent cuts to the Electronic Government Fund 
make its future a bit cloudy. That is a matter of concern to 
me. I know it is to others. We hope to hear more today about 
the Web site's status and its importance from our witnesses.
    Finally, during his State of the Union Address a couple 
months ago, President Obama pledged to merge and reorganize 
agencies. I believe Mr. Zients is leading these efforts for the 
President and we hope to hear from him and other witnesses 
about how this new law can serve as a tool for making some of 
the tough decisions ahead, and we know they will be tough.
    Today, we face unparalleled challenges both here and 
abroad, and these require a knowledgeable and nimble Federal 
Government that can respond effectively. With concerns growing 
over the mounting Federal deficit and national debt, the 
American people deserve to know that every dollar they send to 
Washington is being used to its utmost potential. We need to 
replace the, what I would describe as the culture of 
spendthrift that has become all too common in Washington, 
really, in Federal agencies across the country, replace that 
culture of spendthrift with what I describe as a culture of 
thrift, and making better use of performance information is an 
invaluable tool that can help us get there. If used 
effectively, it can identify problems, find solutions, and 
develop approaches that can help us to provide better service 
to the people who send us here for less money than we are 
spending today--better results for less money.
    With that said, I going to turn to Senator Scott Brown for 
his statement. Thank you.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Certainly, thank you, Mr. Chairman, for 
holding this hearing. As you mentioned, Senator Akaka cannot be 
with us today. I want to just say for the record that while I 
have an opportunity to serve in this Joint Subcommittee 
hearing, to recognize his distinguished service and leadership 
on issues concerning the improvement and management of our 
Federal Government. I want to thank our witnesses all for 
coming and all the people that are here to listen.
    As you know, just to mirror what Senator Carper said, we 
are in a financial emergency and we need to squeeze out every 
last dollar. When I go around the country and around the State, 
in particular, and people say, before I give any more taxes, I 
want to know that the Government is using my money wisely, and 
I think there is a trust issue right now, that people want to 
do their fair share, but they also want to know that when they 
do it, they are not going to be wasting their hard-earned 
dollars. And I think there needs to be an effort to reestablish 
trust between the American people and the Federal Government, 
quite frankly, and I am hopeful through your efforts, 
collectively, that you will be able to eliminate any overlap 
waste, fraud abuse.
    On the one hand, we are wrestling about $61 billion, and on 
the other hand, we are giving away hundreds of billions of 
dollars just through various programs and projects that are 
either obsolete, they are not working properly, and we need 
help. And I have said publicly, I am happy to help the 
Administration with these things, happy to work with my 
Democratic colleague, Mr. Chairman, to tackle these things. 
There are people of good will on both sides of the aisle who 
want to tackle these things and we have not been given the 
opportunity yet and I am hopeful we can do that.
    So this hearing is obviously a good step and I want to just 
thank you for coming and letting us know where you are at and 
what you are doing and I look forward to the testimony, as 
well. Thank you, Mr. Chairman.
    Senator Carper. Good. Thank you, Senator Brown.
    Senator Johnson from Wisconsin.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman. I also want to 
acknowledge Senator Akaka, who is just a fine gentleman, and 
certainly wish him a speedy recovery. It is too bad he cannot 
be here today.
    I also want to acknowledge what Senator Brown just said 
about people working together in good will and good faith to 
tackle these issues. I came to Washington because we are 
bankrupting this Nation. We are here at a very serious time. I 
think our Nation is imperiled, and I knew the system was 
broken. I knew processes were broken, our budget process was 
broken, and unfortunately, there has not been a whole lot of 
things I have seen here in my 4 months and 7 days--but who is 
counting--that has changed my mind that things are pretty 
broken here in Washington. But there are a few rays of hope, 
and certainly working with you, Mr. Dodaro, in terms of what I 
have seen coming out of the Government Accountability Office 
(GAO), and I think the Government Performance and Results 
Improvement Act, I mean, these are signs that maybe we do have 
a chance. When we are looking at running a $1.65 trillion, or 
as I like to refer to it, a $1,650 billion a year deficit, we 
simply cannot afford to have inefficient and ineffective 
Government.
    So, again, I am looking forward to your testimony. Thank 
you for coming. I think in particular, as I mentioned to Mr. 
Zients, I really want to talk about examples. I want to see in 
the past what has worked, and maybe more important, what has 
not worked and why it has not worked in these agencies in terms 
of actually improving them, looking at metrics and seeing how 
we can move this process forward.
    So, again, thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Johnson.
    Our first witness today is the Honorable Jeff Zients. Mr. 
Zients is our Nation's first Chief Performance Officer (CPO) 
and the Deputy Director for Management in the Office of 
Management and Budget. Before coming to the Government, Mr. 
Zients spent over 20 years as a Chief Executive Officer (CEO) 
in the private sector, and we thank him for appearing today. 
Thank you even more for your service.
    Our witness alongside of--his wingman, alongside of Mr. 
Zients, is Gene Dodaro, a man who testifies time and again with 
no prepared testimony. He does it off the top of his head. We 
will see if he can do it again today. I tell him, the only 
other person I ever saw do this was John Roberts, who went on 
to become the Chief Justice of the Supreme Court, so you have a 
bright future ahead of you, if not at GAO. [Laughter.]
    But Gene is the Comptroller General of the United States 
and head of the U.S. Government Accountability Office. What is 
the length of your tenure, is it 15 years? Sixteen years?
    Mr. Dodaro. Fifteen years.
    Senator Carper. Fifteen years, OK. Mr. Dodaro has a long 
and distinguished career at GAO, stretching back for more than 
30 years, and we thank him for being with us today and for 
testifying.
    I just want to say--I said this to some of my colleagues 
today and I will just say this before we turn it over to our 
witnesses--I think GAO, in terms of deficit reduction, are 
actually getting better results for less money. I think GAO 
does huge public service for us, if we will take advantage of 
it. Among other things, it is with their High-Risk List. It is 
almost like a to-do list for things that we can do to change 
the culture around here, but not just change the culture, but 
actually get better results for less money.
    And I always commend it to my colleagues and would do so 
again today, and we thank you for that, and also for your work 
on duplication. If we are smart, we will take Subcommittees 
like this one that are really interested in getting better 
results for less money and work with OMB, where certainly Mr. 
Zients, as our Chief Performance Officer, is interested in 
doing that, and GAO will get some things done. In fact, we are 
already beginning to and I am encouraged by that.
    All right. Mr. Zients, you are up. You can testify for as 
long as you want, but I will have to cut you off a little bit 
after 5 minutes, so do not. But you can keep talking. You will 
run over into Gene Dodaro. But your entire testimony will be 
made part of the record, so if you can wrap it a little over 5 
minutes, that would be great. Thanks.
    Mr. Zients. Great.
    Senator Carper. Please proceed.

     STATEMENT OF HON. JEFFREY D. ZIENTS,\1\ FEDERAL CHIEF 
 PERFORMANCE OFFICER AND DEPUTY DIRECTOR FOR MANAGEMENT, U.S. 
                OFFICE OF MANAGEMENT AND BUDGET

    Mr. Zients. Thank you, Chairman Carper and Ranking Member 
Johnson and Senator Brown. I appreciate the opportunity to come 
before you today to discuss our shared objective to improve the 
efficiency and the effectiveness of Government operations. I 
will provide a brief update on the Administration's performance 
management approach, explain how we are implementing the new 
Act, and discuss the path forward, all within 5 minutes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zients appears in the appendix on 
page 46.
---------------------------------------------------------------------------
    Let me start with an update. The Obama Administration's 
performance management efforts buildupon the groundwork 
established by previous Administrations and by Congress. We are 
using a proven approach. I think it is pretty simple and 
straightforward. Leaders set clear, ambitious goals for a 
limited number of priorities. Agency teams then develop 
performance plans and set specific targets. And then agency 
leaders, working with OMB, conduct frequent performance reviews 
to drive progress toward these goals. And we are getting 
results.
    Let me start with our Government-wide management efforts. 
We have reviewed, case by case, over 100 troubled information 
technology (IT) projects and have reduced spending by roughly 
$3 billion. As importantly, we have streamlined these projects 
to focus on the critical business needs, and in some cases, we 
have actually terminated poorly performing projects altogether.
    For in improper payments, we have deployed state-of-the-art 
fraud detection tools used by the private sector to crack down 
on fraud and abuse. These tools have helped us avoid $4 billion 
in improper payments in 2010 alone.
    We have also tackled the longstanding problems plaguing the 
management of real property, making significant progress toward 
the President's goal of achieving $3 billion in savings by the 
end of next year. We proposed to Congress just last week a Base 
Realignment and Closure (BRAC)-like approach to civilian 
property that would save $15 billion over 3 years.
    So while we have been driving progress in these and other 
Government-wide areas, we have also been working very closely 
with senior leaders, deputy secretaries of the major agencies, 
to set clear goals in their agencies on their specific high 
priority areas.
    Take Department of Housing and Urban Development (HUD), for 
example, where Secretary Donovan and his deputy are working on 
a goal to assist 700,000 homeowners who are at risk of losing 
their homes. They are currently actually tracking ahead of 
their targets, 25 percent ahead, for early delinquency 
intervention and loss mitigation. HUD is also working with the 
Department of Veterans Affairs (VA) to reduce homelessness 
among veterans, and they are on track to bring the number of 
homeless veterans down below their target of 59,000 by June 
2012.
    For all of these priority goals, both the agency-specific 
and the cross-Government management goals, we have senior 
accountable officials who are executing on detailed action 
plans and agency leaders who are tracking and analyzing 
progress against very specific outcomes-based targets. They are 
driving continual progress to meet their goals. Where they are 
off-track, they are making mid-course corrections.
    We are harnessing the power of transparency and 
accountability to get these results. We are using vehicles like 
the IT Dashboard to cast light on Government-wide management 
priorities. In each quarter, agencies report progress on their 
agency-specific goals through the Web site that Senator Carper 
mentioned, performance.gov. As needed, myself and my team at 
OMB follows up with agencies to support their efforts or to 
push where we think there needs to be more action, all to make 
sure that we are making sufficient progress.
    The GPRA Modernization Act that just passed really builds 
on and reinforces our performance management approach, and we 
are working aggressively with agencies to implement the Act. As 
Senator Carper mentioned, last month, OMB Director Lew and I 
sent a memo instructing agencies to designate both Chief 
Operating Officers and Performance Improvement Officers to 
drive performance and implementation of the Act. We also 
outlined the process and the time line for setting new agency 
priority goals as part of the Fiscal Year 2013 budget process 
that we are starting.
    Furthermore, as all of us recognize, the Federal Government 
too often operates in stovepipes, with inadequate cross-agency 
cooperation and coordination. The Act enhances our efforts to 
address this problem through the creation of Federal cross-
agency priority goals. We have started the process of 
identifying these cross-agency goals for the first time with a 
specific focus on opportunities to address the duplication and 
inefficiencies across agencies, like those highlighted in the 
GAO report. We look forward to working with Congress in the 
coming months as we develop these first Federal cross-agency 
priority goals.
    Importantly, the Act also calls for us to move from the 
production of very lengthy printed performance plans and 
reports to more useful, more actionable online performance 
information. Performance.gov is the vehicle for this. It will 
facilitate and accelerate performance management, and we plan 
to make the information on the site available to the public 
soon to help hold us accountable. We will work to expand 
Performance.gov to meet the Act's broader reporting 
requirements in advance of our October 2012 deadline, though, 
as Senator Carper has said, the exact timing and level of 
functionality will be dependent upon future funding levels.
    So in closing, our path forward, and the progress that we 
have had to date, gives me a lot of confidence that, together, 
we can change the way Government works to provide the American 
people with the efficiency, effective, and high-performing 
Government they deserve. I look forward to working closely with 
the three of you and other Members of Congress and my 
colleagues and Federal employees across the Nation to 
accomplish our shared objectives.
    I want to thank the Subcommittee for holding the hearing 
and for your continued commitment to improving Federal 
performance. Post-Gene, I will be happy to answer any 
questions.
    Senator Carper. Thank you very much for that testimony.
    Mr. Dodaro, you are on. Thanks.

  STATEMENT OF HON. EUGENE L. DODARO,\1\ COMPTROLLER GENERAL, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Good afternoon, Mr. Chairman, Senator Brown, 
Senator Johnson. I am pleased to be here today to discuss the 
Government Performance and Results Modernization Act. I would 
first like to express my best wishes to Senator Akaka, as well, 
for a speedy recovery.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the appendix on 
page 52.
---------------------------------------------------------------------------
    There are five elements of the legislation that I wanted to 
focus on in my oral comments today. The first is instilling a 
more coordinated, cross-cutting focus on achieving meaningful 
results. I believe our report on Overlap, Duplication, and 
Fragmentation vividly outlined the need for a better approach 
in this area. For example, the report highlighted several areas 
where there are between 40 and 100 different programs trying to 
accomplish similar objectives in the areas like teacher 
quality, employment and training programs, economic development 
programs, surface transportation. There is the need for greater 
coordination to make sure that the Federal Government's role is 
clear, that there are opportunities to focus better on what the 
Government collectively is trying to achieve in these areas, 
there is a prioritization, and there are metrics that could be 
used to hold agencies accountable. So I believe this cross-
cutting coordinating focus can drive greater efficiencies, and 
the GPRA Modernization Act is a platform for reprioritization 
of what the Federal role should be and how it will be measured 
to gauge success.
    Also, more and more problems require multiple agencies to 
work together to tackle those problems, whether we are talking 
about homeland security or battling infectious diseases, and 
the GPRA Modernization Act offers a new, fresh start to begin 
those processes in a coordinated way across the Federal 
Government.
    The second major element is focusing on management 
challenges and management functions. The Act calls for focusing 
on five: Financial management, human capital, acquisition and 
contract management, real property, and information technology. 
These areas, either the whole area or aspects of the area, are 
on our High-Risk List. Now, while in most of the areas, there 
were efforts made during the 1990's to pass management reform 
legislation, and there have been some benefits from that, but 
we are nowhere near having the type of management 
infrastructure and capabilities commensurate with the 
challenges facing the Federal Government right now. And I am 
hoping that through the requirements for OMB to produce plans 
on these management functions, that will provide greater 
impetus to making the necessary improvements so the Government 
has the management capacity to really deliver better results 
for less money. But it will not happen with only plans in each 
of the functional areas, but the plans need to be developed in 
an integrated fashion to look at these management tools using 
approach that provides the biggest bang for the buck.
    Third, the emphasis of the Act on use of performance 
measures is critical. The need to disclose more about the 
reliability of the performance measures, to provide more 
frequent reporting, or quarterly reporting, and to make it 
transparent through a single, governmentwide Web site, I think 
will have profound effects on accountability moving forward.
    Again, in our report on Overlap, Duplication, and 
Fragmentation, we found in many cases, many of these programs 
had not been reviewed for their impact. In the employment and 
training area, only 5 of the 47 programs we looked at had a 
performance evaluation impact study since 2004. Many other 
programs have not been evaluated. So there needs to be rigorous 
discipline imposed and the capabilities enhanced of the 
agencies to be able to focus on these areas.
    The last two, the fourth and fifth areas I would mention 
together, which is leadership and engaging the Congress more in 
a dialogue. I would note the two areas that we took off the 
High-Risk List this past year had senior management attention 
in the Executive Branch and had over a dozen hearings by the 
Congress to get sustained progress and enough attention to come 
off of the list. So it is very important for the Executive and 
Legislative Branches to work together on these problems, to 
have ongoing dialogue. I think through the collective efforts 
of all, the Government can have systems in place that the 
American people expect and that could provide better results 
and more effective services.
    And I would close by saying that I can assure this 
Subcommittee there are several roles for GAO in the legislation 
to provide periodic evaluations of its implementation and we 
will be doing that very diligently and providing the results to 
the Congress.
    So thank you very much. I would be happy to answer any 
questions.
    Senator Carper. That is great. Thanks so much.
    Let us just go back to your last point, if we could, Mr. 
Dodaro. You mentioned there are several opportunities or roles 
for GAO to play, and I think there are some for OMB certainly 
to play. Talk about, if you will, the role for us on this side 
of the dais, for the Legislative Branch.
    I go back to this idea of getting better results, focusing 
on performance. Eighteen years ago, President Clinton signed 
the original legislation into law, and here we are 18 years 
later. I think you could argue we have made some progress, but 
certainly not nearly enough.
    But talk, if you will, a little bit about the roles that 
GAO is expected to play under the legislation. And if you will, 
turn it around on us and say, well, these are some things that 
you and the Legislative Branch could do that would be real 
helpful.
    Mr. Dodaro. Well, GAO's responsibilities, first, are to 
provide evaluations by 2013 on the planning and reporting 
aspects of the GPRA Modernization Act, and then by 2015 and 
again in 2017, to provide analysis of how the performance 
information is being used to enhance performance and hold 
managers accountable for achieving those results, and then 
every 4 years after. So there is a set schedule in place for us 
to review it on a periodic basis but I focused on early 
implementation. I believe in getting started right away and 
laying the proper foundation. So we are already beginning our 
outreach.
    Now, as it relates to the Congress, I think the Act sets 
what I would call minimum requirements for consultation; that 
is the Executive Branch must consult with the legislature about 
their goals every 2 years and to disclose how they use the 
results. I think the Congress ought to seize the opportunity to 
be more proactive and to provide its input into the Executive 
Branch about these program activities, what they would like to 
see out of the results, to have frequent, ongoing 
communication, and to have formal oversight hearings.
    I think the other challenge for the Congress, quite 
frankly, will be in these cross-cutting areas, because they 
will cut across committee jurisdictions. So I think joint 
hearings like this type of hearing will have to become more 
commonplace and to have more dialogue so the Congress can 
express its collective views on these cross-cutting policy 
issues. I think that will be very important.
    Senator Carper. All right. Good. Thanks.
    Mr. Zients, same question, if I could, replacing GAO with 
OMB, the first part.
    Mr. Zients. OK. In terms of OMB's role, it is central here. 
We are, as you pointed out, working with agency leaders to 
designate the COOs, the PIOs, to ensure that those quarterly 
reviews kick in at the end of June. We are going to be working 
very closely as part of the President's Management Council 
(PMC), the senior-most management council across government, 
that I chair. It is the deputy secretaries, and we meet 
monthly. Performance has been our agenda since the beginning of 
the Administration and the Act has been a constant agenda item 
since it passed in January.
    Senator Carper. How has attendance been at those meetings?
    Mr. Zients. We make sure that we schedule around very busy 
people's calendars. There are 20 members. We typically have 17 
or 18 at the table.
    Senator Carper. All right.
    Mr. Zients. But that is through a complex scheduling 
process to coordinate schedules. We are essential here. It is 
going to be a very important part of my effort----
    Senator Carper. Do you meet in person or do you do it---can 
people do it by video, or----
    Mr. Zients. It is all in person.
    Senator Carper. OK.
    Mr. Zients. It is an hour-and-a-half meeting once a month. 
No substitutes is also the rule, so it is the deputies 
themselves. So that senior ownership and making sure that we 
provide the tools and that we hold the review sessions with 
senior leaders to make sure that they are making progress is 
probably the most important role.
    On your second question, on Congress, I would echo what 
Gene said in terms of giving input and holding us accountable. 
I would also say that, like the real property legislation that 
we talked about last week, we are going to need the cooperation 
of Congress. Some of these issues, real estate being a tangible 
one, individual members of Congress care a lot about individual 
properties, and in order for us to rid ourselves of unneeded 
properties, we are going to need congressional help to do that.
    That is also true with the individual programs. There is 
plenty of work that we need to be doing in the Executive 
Branch, but inevitably, on some of these programs, there are 
members of Congress who care a lot about the individual 
programs, even if they might be less effective programs. We are 
going to need your cooperation in order to rid ourselves of 
unnecessary or poorly performing programs and unneeded real 
estate, and that exists across many of our areas.
    Last, the more that these priorities are hard-wired into 
budget and appropriations, the more real they become. So I 
think it is going to be very important that we work closely 
with you and that, ultimately, budgets and appropriations 
reflect these priorities.
    Senator Carper. Great. I would like to say, and I say this 
as much to my colleagues as anybody else, but one of the things 
that we are trying to do, this is just one little Subcommittee 
in Homeland Security with fairly broad jurisdiction, and what 
we are trying to do is to figure out how to leverage our role, 
and by working with OMB, by working with the Government 
Accountability Office, by working with the Inspector Generals 
(IG) across the Federal Government, by working with nonprofit 
groups, Citizens Against Government Waste and David Walker's 
new organization and Pete Peterson and those initiatives, maybe 
together--none of us by themselves can get this job done 
because it is so huge, but I think by working together--these 
are not partisan issues. Nobody likes waste. It is not a 
Democrat or Republican issue. So I am encouraged by what you 
are doing.
    Somebody said to me recently that one of the best ways to 
get better performance was through transparency, by being more 
transparent. We are actually opening up to the full light of 
day how well we are doing or not doing a particular job or 
role, then that is a pretty good way to get better results, and 
I think there is something to that.
    With that in mind, we have, unfortunately, in the 
Continuing Resolution cut significantly the amount of money 
that is going to be available to help pay for, among other 
things, performance.gov and some of the tools that we have in 
mind that Vivek Kundra has been pushing for us to do, the 
Dashboard stuff and others.
    I want to ask, if I could, Mr. Zients, when does OMB plan 
to release the final public version of the Web site, and will 
the schedule be affected by the Fiscal Year 2011 budget 
reductions to the Electronic Government Fund?
    Mr. Zients. Yes. As you pointed out, the Continuing 
Resolution (CR) did result in much reduced funding for efforts 
like the IT Dashboard, USAspendingperformance.gov, and these 
other vehicles, which I do think have a real impact on 
performance. The IT Dashboard looks at every major IT project 
across the Federal Government, to see it is performing versus 
costs and budget. That set us up to do the very detailed 
project by project review that resulted in the $3 billion of 
savings and cutting delivery times in half.
    So I, too, am a big believer that this transparency can 
help drive performance and hold us accountable. We will be able 
to keep most of the current sites going, but we are not going 
to be able to do the enhanced functionality that begins to 
integrate sites and make them more user friendly and more 
applicable to performance with the level of funding that we 
have.
    We do anticipate that the very early version of 
performance.gov will be available in the next few weeks. 
Getting it to the standard that the Act calls for by October 
2012, will depend upon getting the funding, because it really 
envisions a much more robust site than the one that we will be 
able to make available in the next few weeks.
    Senator Carper. All right. Good.
    We have been joined by Senator Pryor. Welcome, Senator 
Pryor. Glad to see you.
    And I would just say, one of the things I was just asking 
them, Mark, is what we can do to be a good, full partner in 
this, and I think one of the ways is to make sure, if we are 
interested in the transparency, if we are interested in 
transparency driving performance, I think we need to make 
sure--these are very modest amounts of money, very modest. We 
are talking about $20 million, which in the whole scheme of 
things with a government this size is like--it is very, very 
small.
    Mr. Zients. The government spends, $80 billion a year on 
IT, so the idea of a relatively small amount of money to open 
up performance across an $80 billion annual spend is, I think, 
money well spent.
    Senator Carper. Yes. I agree. All right. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Mr. Zients, could you tell me the top five areas you have 
established as having the greatest need for improvement, and 
can you go into detail on how the initiative will ultimately 
save us money, and potentially how much?
    Mr. Zients. I think that the top five areas are actually in 
Gene's second category, which are the management areas that 
cross all agencies. So I will start with contracting, where one 
out of every six dollars is contracted out. It is over $500 
billion a year. It doubled during the Bush Administration, so 
it had about a 12 percent compounding annual growth rate. You 
can imagine with that kind of growth, that there are 
inefficiencies. There is too little competition, so we cranked 
up competition. We rely too heavily on cost-plus or cost 
reimbursement contracts rather than fixed-price contracts, so 
we have set targets for moving contracts from cost-plus to 
fixed-price.
    We purchase in the Federal Government, Mr. Johnson, like we 
are hundreds of small or medium-sized business, when, in fact, 
we are the world's largest purchaser. So we are using strategic 
sourcing and for the first time, really pooling our purchasing 
power, and office supplies is a very basic example. We are 
pooling purchasing power for the first time and we are saving 
10 to 20 percent on the same pens and paper that agencies 
purchase every day.
    Another area is IT, as I mentioned, $80 billion a year. 
Probably to me the most important area----
    Senator Brown. Can I interrupt for 1 second?
    Mr. Zients. Sure.
    Senator Brown. I just want to go back to what you talked 
about, the office supplies issue, only because I was recently 
contacted by some folks. I guess my concern is when you are 
doing that sort of thing and you are actually doing the bulk 
purchasing, which I actually have a bill that is dealing with a 
lot of that stuff----
    Mr. Zients. Mm-hmm.
    Senator Brown [continuing]. I am hopeful that when you do 
that, that you are not going to squeeze out the smaller 
business people and then have no competition to the point where 
you are just going to one entity ultimately----
    Mr. Zients. No, it is something that we are very cognizant 
of from the beginning, both small businesses, veterans' owned 
businesses, disabled businesses, and the like. Out of the 15 
suppliers that are part of the final list there, 13 are not 
large businesses. They are small businesses, veterans' owned 
businesses and all the rest. So it is not to say there are not 
small businesses that have lost out relative to small business 
competitors----
    Senator Brown. Well, in Massachusetts, there are quite a 
few, actually. I received quite a few calls on it. So maybe 
offline, we can talk about it----
    Mr. Zients. Sure.
    Senator Brown [continuing]. So I am clear. I want to make 
sure that I understand----
    Mr. Zients. But to be clear, if you are going to do 
strategic sourcing and consolidate purchasing power, 
definitionally----
    Senator Brown. Oh, yes. No, I get it.
    Mr. Zients [continuing]. You are going to have a funnel. 
But in terms of the 15 that are on the list, 13 are small 
businesses.
    Senator Brown. Right. I did not mean to interrupt.
    Mr. Zients. No, sir. IT, as we have talked about is $80 
billion a year in spending. To me, it is probably the most 
important category, if you think about the year over year 
productivity gains in the private sector, 1.5 to 2 percent a 
year for the last couple of decades. IT has been at the center 
of those gains, those gains both in efficiency and quality. And 
if you were to go to a typical government operation, for the 
most part, you would see processes and technologies that are a 
decade or two old. So if we are going to drive productivity, do 
more with less, we are going to have to get better at IT----
    Senator Brown. I am going to interrupt you there again.
    Mr. Zients. Please.
    Senator Brown. Another Senator and I have already had a 
hearing or two on that very issue because the amount of just 
inefficiency and waste in that area is huge, especially with 
the technology that we have now. It seems like we are 
reinventing the wheel and the wheel is moving so quickly, we 
are always two or three generations behind.
    Mr. Zients. Yes. We have agencies that are relying too 
heavily on proprietary development. There is an opportunity to 
do shared services. There is an opportunity to leverage the 
cloud. So, again, I think--we are 0-for-2. We spend $80 billion 
a year and we get a very low return for that----
    Senator Brown. And we are fighting about $61 billion, 
remember, in the last budget round. So that just goes to show 
you, when we are wasting--you said we are spending, but we are 
also--there is a tremendous amount of waste in here that I am 
glad----
    Mr. Zients. As I said, when we went through 100 projects, 
we were able to reduce it by $3 billion, and I think more 
importantly, halve the delivery time for those projects so they 
can actually start to work to increase productivity efficiency 
and service quality.
    Another area is improper payments, one that Senator Carper 
has been----
    Senator Brown. We had a hearing on it a couple of weeks 
ago, in the Medicare and----
    Mr. Zients. Right, $100 billion a year. There, we are 
importing from the private sector fraud detection tools that 
are enabling us to recapture funds. We actually piloted some of 
those in the Recovery Act. We are taking those to Medicare and 
elsewhere. Recovery audits, which Senator Carper helped 
pioneer, the idea of bringing in private sector firms to 
actually recover payments that should not have been made, $700 
million in recovery last year. So a lot of work still needs to 
be done in improper payments, a major area of focus, and 
clearly, we need to reduce waste and inefficiency there.
    Senator Brown. I just want to jump in. As you are hitting 
it, it is kind of triggering a few things. Is there, like, a 
hotline where the ordinary citizen can call in and say, hey, by 
the way, I am aware of all this--it may be inefficiency or 
waste. Is that something you guys deal with or put out there at 
all?
    Mr. Zients. Yes. I do not know the specifics. I believe 
there are through the Inspectors General and elsewhere, but I 
would need to get back to you on specific outlines. Certainly, 
the Inspectors General play a feature role here.
    Senator Brown. Right. I did not know if you guys had 
specifically anything----
    Mr. Zients. Another area is real property. We are the 
country's largest property owner, over a million properties. 
Already, 14,000 have been identified as unneeded. We made those 
public last week. But beyond the 14,000, there are tens of 
thousands of properties that are underutilized. It is way too 
difficult to get rid of unneeded property, too many steps in 
the process, a lot of red tape. And as I mentioned earlier, 
there can be political interests, too. So we are executing on 
$3 billion of savings, but that is really just the tip of the 
iceberg. If we can get this BRAC-like process set up, I think 
we can save $15 billion across the first 3 years. This is not 
even taking into account innovative space management practices 
like teleworking and hoteling that the private sector has been 
doing for years now.
    Senator Brown. Yes. No, that is good. I appreciate it. I 
just have one comment and then one last question and then I 
will move on. I was wondering if we could speak offline about 
just a couple of things----
    Mr. Zients. Please.
    Senator Brown [continuing]. Maybe today or tomorrow or the 
next day, whatever.
    Mr. Zients. Please.
    Senator Brown. And I was wondering, what can OMB do to 
ensure that the agencies create a performance culture? I know 
you referenced that only a handful of agencies actually do any 
type of review, and where all agencies are accountable and then 
actually rewarded for contributing to the success of the goals, 
not just the senior executives, so the low-level, mid-level, 
every employee feels like they are part of the team.
    Mr. Zients. Yes. I do think you have to start at the top. I 
think, historically, one of the problems had been the turnover 
and lack of focus of political folks, and we have been working 
very hard to make sure that deputy secretaries and senior teams 
are focused on a handful of priorities. I think Senator Carper 
mentioned it up front. We tend to measure everything, and then 
nothing really matters. So I think central to the Modernization 
Act, and to our effort here, is to pick a number of priorities 
and track them relentlessly.
    You are right, Senator Brown. Celebrate victories. Mid-
course, correct where you are off-line. And we have the bulk of 
the President's Management Council now extremely focused, a few 
laggards who are catching up, and really driving performance at 
their agencies, and it is contagious. As you start to make 
progress and show that results can happen, it trickles down in 
the organization and everybody gets on board.
    Senator Brown. Thank you, Mr. Chairman.
    Senator Carper. I would just say, what I think we are 
getting at here is really trying to change the culture. Again, 
one Subcommittee does not change it, but all of us working 
together, because we are all in this together, all of us 
working together, I think, actually can. It is a little bit 
like changing the course of an air craft carrier. But even 
those carriers' courses can be changed.
    The other thing we have had hearings on, and I do not know 
that Senator Johnson was here, but Senator Brown and I have had 
some hearings where we actually brought in the Department of 
Defense (DOD), and among the things we focused on, major 
weapons systems cost overruns, which are up last year about 
$402 billion, up from $42 billion a decade earlier. And what we 
found out is there are major gaps, where we had nobody 
literally at the top in the Pentagon whose job is procurement 
for months, in one case, 18 months, in another case for, like, 
15 months. I mean, just stuff that is--no wonder we have 
problems in this.
    We have to have continuity. Sometimes I look at the 
Executive Branch and it almost looks like what I call Executive 
Branch Swiss cheese. Whether it is the Bush Administration or 
the Obama Administration, that is no good. That is no good.
    Senator Johnson, thanks for being here.
    Senator Johnson. Well, thank you, Mr. Chairman.
    I used the analogy earlier today, because I have a dirty 
garage, but if you are going to try and clean it, you start 
somewhere. You start in that corner. I think that is what we 
are talking about here, too. I mean, we have a massive, 
behemoth government and there are all kinds of waste and 
inefficiency, but you have to start somewhere and utilize those 
examples across the board.
    I just wanted to ask a couple of followup questions on the 
properties. Mr. Zients, when you are talking about $15 billion 
savings over 3 years, is that savings in the cost of renting 
those properties or is that just receipts from selling the 
properties?
    Mr. Zients. Both. We have properties that are abandoned 
that might not have much market value. Those, we have to either 
give away or demolish and save the maintenance and energy 
costs. The majority of the savings, I think it is about 60 to 
65 percent, is in the sale, but the other 35 percent, 
obviously, is important maintenance and energy costs.
    Senator Johnson. Do you have an estimate--this is maybe 
getting a little off-subject, but do you have an estimate of 
total property, what the total receipt might be if we sold it?
    Mr. Zients. It is carried on the books at over a trillion 
dollars, but the book value is a funny number here given the 
market fluctuations, where some are probably worthless and some 
are worth much more than we carried on the book. I think the 
figure is high one-point-something trillion. It is $20 billion 
a year of maintenance and energy expense. So that is our annual 
expense.
    Senator Johnson. Again, so you can save on maintenance and 
you could have money coming to Treasury to fill a budget gap?
    Mr. Zients. Exactly.
    Senator Johnson. Mr. Dodaro, you were talking about 
oversight hearings. One thing I have learned in business is I 
have generally received better results trying to be positive, 
but when that fails, I mean, you have to get negative. Can you 
just talk to me a little bit about how you would envision those 
oversight hearings? I would imagine, again, talking about that 
corner of the garage, you would try and use examples, correct, 
to highlight it, and then maybe other agencies would start 
toeing the line?
    Mr. Dodaro. I would use examples of the two areas that came 
off the High-Risk List. First was the personnel security 
clearances. It was taking a huge amount of time, months, right 
after September 11, 2001 to get people their security 
clearances. So we put it on the High-Risk List. Congress 
imposed some metrics including the Deputy Director for 
Management. OMB, the Office of Personnel Management (OPM) and 
DOD got involved and they brought that metric down over time to 
less than 60 days to process the original clearance. There were 
clear goal and metrics. Congress had discussions. It was a 
constructive process.
    The same thing happened with the Decennial Census. That got 
off-track for this last 2010 Census. We put it on the High-Risk 
List in March 2008, out of our normal 2-year cycle, because we 
were concerned. We gave a lot of specific recommendations. 
Commerce got involved. The Congress got involved. Senator 
Carper and this Subcommittee, a lot of hearings were held. They 
brought it down on track. An IT project was out of control on 
these hand-held devices, and they were able to do it.
    So my belief is--and I have participated in a lot of 
oversight hearings over the years--that I think when there are 
clear priority goals, clear metrics, Congress can play a very 
constructive role in keeping the agency on track, and this is 
particularly important because of the lack of continuity on an 
issue that might occur in the Executive Branch, both within 
Administrations and across Administrations, and that is why we 
have maintained our High-Risk List, since 1990 across 
Administrations so that we can keep the focus on trying to move 
forward in these areas.
    So it is a very positive thing and it could focus on 
accomplishments in terms of achieving results. For example, 
Senator Voinovich said he would actually come back from Florida 
from vacation if we took the personnel security clearances off 
the High-Risk List. He ultimately decided the weather was 
better in Florida than it was here, but I think those things 
can happen. So those are just two examples. I could give you 
more.
    Senator Johnson. OK. We talked a little bit earlier about 
congressional action. Would either of you envision with either 
of your agencies recommending for sunset certain programs, a 
list that Congress could then act on? Is that kind of in the 
offing?
    Mr. Dodaro. Yes. The GPRA Modernization Act calls for OMB, 
after programs do not meet their goals over a 3-year period, to 
recommend termination, redefining, or some other action. So 
that concept is built into the Act. I think that is healthy.
    I think there are normal reauthorizations that are supposed 
to occur already in programs, but they are typically postponed. 
No Child Left Behind, for example, is up for reauthorization, 
as are Head Start programs. So I think that the idea of regular 
reviews is a really good idea. It is a healthy idea and it 
ought to be implemented effectively.
    Mr. Zients. The President each year in his budget puts 
forward terminations and reductions as a separate volume. Last 
year, or for the Fiscal Year 2012 budget, it was over $33 
billion and 200 different programs. Now, some of those have 
been on the list for quite some time across different 
Administrations. We would imagine those efforts ramping up even 
further in this fiscal environment, and the Federal cross-
agency goals that the Act calls for will certainly be in these 
areas of duplication and overlap and we would envision finding 
programs that are less effective that either need to be turned 
around or terminated as part of that effort.
    Senator Johnson. As just a basic estimate, how many of 
those programs need congressional action versus just that could 
be terminated by the agencies themselves?
    Mr. Zients. I think that most--the vast majority of them 
need congressional action.
    Mr. Dodaro. Yes, I would agree.
    Senator Johnson. OK. So we need those lists.
    Mr. Zients. Yes.
    Senator Johnson. You talked about cross-agency action. Is 
there any kind of clearinghouse for just best practice methods 
within government?
    Mr. Zients. Yes.
    Senator Johnson. Across the management sphere?
    Mr. Zients. Yes, and that absolutely is something I am a 
big believer in. My private sector work was sort of centered 
around best practices, the basic theory being that some 
executives or some organizations are further ahead on certain 
issues and others can benefit from that.
    The senior-most management body, the President's Management 
Council that I talked about earlier, is a clearinghouse for 
best practices at the senior-most level. We also have councils 
in each of the functional areas. There is a Chief Acquisition 
Officer Council (CAOC), a CFO Council, a Chief Human Capital 
Council, and so on across the major functional areas, and we 
have ensured that those become primarily best practice 
clearinghouses, what is working, what is not working, how can 
we work together more efficiently.
    Senator Johnson. I was going to say, how well are those 
utilized?
    Mr. Zients. I think increasingly well, and that has been 
one of our priorities. There is some variability. The way that 
we have tried to make sure those councils have a high return is 
to ensure that the senior-most people are there, and in order 
to get the senior-most people there, you have to have agendas 
that matter, and we have found that the sharing of best 
practices on important issues with real granularity and 
analytics to support them is the way to get people there and to 
find that the council is a good return on their time.
    Senator Johnson. I cut you off. I am sorry.
    Mr. Dodaro. That is fine, Senator. I would say the 
functional councils and the sharing of best practices work 
fairly well. They could be better, and we have made some 
recommendations. But where there are not really good processes 
in place are in individual program areas.
    For example, we found in our report on overlap and 
duplication there were 82 programs focused on improving teacher 
quality across 10 different agencies, and there really was no 
process there to coordinate. There are multiple programs trying 
to provide assistance to the disabled and there is no real 
regular forum for that. So when these individual programs are 
run by different agencies--there needs to be more of a focus.
    Now, the GPRA Modernization Act requires OMB to designate a 
few cross-cutting goals, but it also requires agencies to 
identify for their programs who else they should be 
coordinating with. And so if that part can be implemented 
effectively, I think you can have a more comprehensive 
approach, the coordination could ferret out a lot of this 
overlap and duplication by having the dialogue within the 
Executive Branch itself.
    Senator Johnson. OK, thank you Mr. Chairman.
    Senator Carper. Thank you.
    Before I yield and recognize Senator Pryor, I just want to 
mention, in the National Governors Association (NGA), we 
actually had a Center for Best Practices and there was a 
clearinghouse for good ideas that worked from A to Z, and the 
States that were doing a particularly good job, thought they 
had something to offer, would submit their best practice to the 
clearinghouse and provide contact information. If other States 
wanted to find out what was working, reduce recidivism, reduce 
welfare, reduce drop-out, all kinds of stuff, and improve 
educational outcomes. Tommy Thompson, your former Governor, was 
one of the real heroes in getting that started and I enjoyed 
very much working with him on that.
    The other thing that came up in, I think, this exchange 
between Senator Johnson and our panel, about the President 
submitting a list, I think in the budget, of programs that 
could be maybe--the President and the Executive Branch would 
suggest being terminated. A lot of times, the President, 
whether it is submitting rescission proposals, reducing 
spending or sending spending, a lot of times, they are sent to 
us by Republican Presidents and Democratic Presidents, we just 
ignore it and we never vote on the rescissions.
    One of the things that a number of us on this panel have 
suggested is not that we give the President carte blanche. I am 
not interested in giving the President the kind of powers that 
the Congress was willing to give to the former President 
Clinton, nothing against him, but basically what was in the 
1996-1997 line item veto bill that has really shifted powers 
enormously from the Legislative Branch to the Executive Branch. 
I am not interested in doing that. But the idea of saying that 
somebody needs to be held accountable, and the President and 
the Congress and the partnership need to be held accountable 
for programs that need to be basically eliminated or greatly 
reduced or spending needs--we should have to vote on that stuff 
and not ignore it.
    And the last thing I would just say, I think, as Mr. 
Dodaro, who mentioned the Census Bureau, and we had a huge run-
up in costs of the Census. We could do it again if we do not 
figure out how to use technology to do a much better job in 
holding down costs, maybe social media, as well, social 
networking.
    One of the big problems there, going back to Executive 
Branch Swiss cheese, we have--in the Census Bureau, we had 
three different Census Bureau Directors in the 27-month run-up 
to the Census--three. That is--no wonder we had problems. One 
of the things we are trying to get done is to change the law, 
and it comes literally through our Committee, and we discussed 
this a couple of weeks ago when we were doing a mark-up, and I 
think you and I are very much of a like mind on this. But we 
said the Census Bureau Director should have a 5-year tenure. We 
do that with the Internal Revenue Service (IRS) Commissioner. 
That way, you do not have to worry about, when you are doing 
the run-up to the Census, well, you are going to have two or 
three different Census Directors. That is just crazy. So there 
is a lot here to chew on, I will tell you.
    Senator Pryor, we are delighted that you could join us 
here. Thanks.
    Senator Pryor. Thank you. Thanks for doing this. This is 
very helpful.
    Mr. Dodaro, let me start with you, if I may. You have said 
a few things. You have never used the term ``zero-based 
budgeting,'' but I feel like you are in the zone on that. Would 
you support a zero-based budgeting approach on the Federal 
level?
    Mr. Dodaro. Well, again, there have been a lot of different 
approaches tried in the past, and there are some limitations to 
the zero-based approach, of going back and trying to build it 
from the base on up. I am a big believer, though, of reviewing 
what is currently there and beginning to pare back and to try 
to focus on core responsibilities. There needs to be a regular 
review process and it needs to have something in it that has 
some staying power.
    Senator Pryor. Should the review come from the Executive 
and the Legislative?
    Mr. Dodaro. Yes, I believe.
    Senator Pryor. I do, too. The reason I am interested in 
zero-based budgeting is because around here, a lot of times, we 
start with last year's budget and then we kind of tinker with 
it from there and usually we tend to add. You kind of start 
with a cost-of-living, inflation-type adjustment and you go 
from there. That is how it starts.
    But it seems like part of the review, at least, not even 
every year but for every agency, every 5 years or whatever it 
may be, take them back to zero and justify everything. I know 
that probably would add to your workload and probably add to 
our workload, as well. Through the authorizing Committees and 
the Budget Committee here in the Senate, we would have to 
figure that all out. But I think it is something that is worth 
fuller discussion, so I appreciate your thoughts on that.
    Mr. Zients, you mentioned contracting a few moments ago. In 
fact, you started to give your top five list. Did you ever get 
through your top five, or do you have a top five?
    Mr. Zients. I definitely ran through contracting, 
information technology, improper payment, real property, so I 
got four out of five.
    Senator Pryor. Do you have a fifth?
    Mr. Zients. It is probably the people side, in that 
performance ultimately needs to be driven by people.
    Senator Pryor. OK.
    Mr. Zients. We are obviously in a tight period of time. At 
the same time, we are going to need to be hiring new people, 
and you are not going to get the best and brightest when it 
takes you 140 days to hire someone. So bringing down the hiring 
time has been a top priority of mine and Director Berry's, and 
we have actually made good progress there, making sure that we 
are ramping up the performance management is also important. So 
the people would be the fifth category.
    Senator Pryor. Let me ask you about contracting. I think 
you said one in every six Federal dollars goes to a contractor, 
somehow, some way.
    Mr. Zients. Mm-hmm.
    Senator Pryor. When I look at an agency that does very 
important work, like the U.S. Army Corps of Engineers (USACE), 
in my area of the world, they engineer that levee system that 
is holding right now. It is under great stress with all the 
water running through the Mississippi. It just seems that when 
they do a contract, it takes so long and it is so expensive. 
And I understand, to some extent, they want to over-engineer 
things, and I get that, because they are doing things for the 
long haul. They are more or less permanent and do not need that 
much maintenance. And so I think they do a good job in the 
engineering phase.
    But that would be one example. It is so expensive and takes 
so long to do some of that, and I am curious about your 
thoughts. First, is my perception correct? And second, I am 
curious if that is a function of bureaucracy and added 
requirements that just do not exist in the private sector. Why 
does it seem that government agencies take much longer than 
private sector and are much more expensive than the private 
sector?
    Mr. Zients. I cannot comment on the level of the specific 
agency----
    Senator Pryor. Right----
    Mr. Zients [continuing]. But across government, it is 
definitely an issue in terms of the complexity of the process. 
I think there are opportunities to leverage technology here, 
also.
    At the end of the day, though, it reminds me a little bit 
of, Senator Carper, your observation about the money that can 
be spent on transparency a relatively small amount given the 
$80 billion in the IT example. The same thing here in 
contracting. We really do not have the capabilities or the 
capacity in the contracting workforce, both in terms of setting 
up the bid process and then overseeing contractors once they 
are selected. More importantly, in a very fiscally constrained 
environment, I would argue that a little bit of investment in 
the capacity and the capability of the contracting officers 
could have a big return on the $535 billion a year we spend on 
contracting. So it does lead to a process that too often is too 
slow, not competitive enough, and relies too heavily on cost-
plus contracts as opposed to fixed-price contracts.
    Mr. Zients. I think, Senator, broadly speaking to 
contracting and not just to the Corps, one of the most common 
problems that we find in looking at contracts is the lack of 
setting definitive requirements up front. Many times--and 
things are allowed to proceed through the different phases 
without having technology matured, a good idea of exactly what 
the costs could be. This leads to cost overruns over a period 
of time. And also, we found in many cases, when the contractors 
were not performing, they were still awarded fees----
    Senator Pryor. Right.
    Mr. Zients [continuing]. For performance. Now, we are 
trying to correct that within the Administration. But the lack 
of definitive requirements up front is a common problem that 
starts on a bad path.
    Senator Pryor. Yes. I used to serve on the Armed Services 
Committee and periodically the military would issue a bid of 
some sort and then change the requirements midway through the 
process. Then they would change them again, and then before you 
know it, they would change them again. It really just prolongs 
and adds a lot to the expense.
    Let me ask about IT. I know that is very important and I 
like everything you said on it. Is that an area where you have 
to spend more money to get more efficient?
    Mr. Zients. No. I think it is an area where we should be 
thinking about how can we leverage technology to make processes 
more efficient and raise quality at the same time. But given we 
spend $80 billion a year right now and we do not spend it very 
well or very effectively. Too often, projects run 5, 6, or 7 
years before they deliver any functionality or----
    Senator Pryor. There is a lot of contracting there, right?
    Mr. Zients. A lot of contracting there, yes.
    Senator Pryor. Yes.
    Mr. Zients. And at the same time, we need to have competent 
professionals in-house to oversee any contracting activities or 
to do work themselves. So I do not think it is an area, given 
how much money we spend, that we need to spend more. We have to 
spend it much more effectively than we currently do, and as we 
have talked about in the 100 projects that we have gone into 
great detail on, we actually think we can save money and bring 
forward functionality at the same time.
    Senator Pryor. And tell me about these 100 projects. How 
did those get selected and what did you find there?
    Mr. Zients. These are larger projects, with bigger dollars, 
that were identified by the IT Dashboard, the transparency 
vehicle, as being behind schedule or over budget. And what we 
did is we got OMB and senior leadership from the agency in the 
room, not just IT folks but business line leaders who are 
actually going to ultimately be responsible for deploying the 
technology and using the technology, to go through the project 
to see what is working, what is not working, what functionality 
is nice to have versus need to have. How do we streamline this? 
How do we get deliverables in 6 or 8 months rather than 2 or 3 
years? Where can we save money?
    Senator Pryor. Right.
    Mr. Zients. Where do we just terminate the project 
altogether, because now we know enough to realize that there is 
another technology out there that can leapfrog this that is 
less expensive and we are throwing good money after bad to 
continue on this path.
    Senator Pryor. Yes. I would say one of the real challenges 
we have in the Federal Government is partly because of the size 
and partly because of the culture and other reasons. The 
Federal Government is not known for being nimble, and IT would 
be a good example of where it needs to become much more nimble 
because IT changes so quickly.
    Mr. Zients. And the budget, the way we budget in the 
Federal Government----
    Senator Pryor. Right.
    Mr. Zients [continuing]. We are budgeting years in advance 
for technologies that change every 18 months.
    Senator Pryor. So any suggestions or recommendations you 
can make to the Subcommittee to let us become more nimble or 
more flexible, so we can become more efficient and get more 
bang for the tax dollar, would be of interest to us.
    Mr. Zients. Good.
    Senator Pryor. Thank you all for being here. Thank you, Mr. 
Chairman.
    Senator Carper. Thanks so much for those points and for 
joining us today.
    I think it was Senator Tom Coburn a couple of years ago, 
and I think he had just gotten to the Congress, I think it was 
about 2005. Barack Obama was a new Senator from Illinois. One 
of the things that Tom Coburn started encouraging us to do was 
to try to provide greater transparency in Federal spending. The 
effort and its actual implementation has not been perfect. It 
has been, I think, somewhat flawed, although we are trying to 
get better and I think maybe we are. But I mentioned earlier 
how important it is for the Subcommittee to sort of leverage 
our job to do oversight with OMB, with GAO, with all the 
Inspector Generals, with a bunch of nonprofit organizations 
that are focused on government waste.
    One of the great ways--it has just dawned on me fairly 
recently that, and Senator Coburn came up with it a lot sooner 
than I did, but a great way to leverage our collective efforts 
is by really investing a relatively small amount of money in 
ensuring that there is transparency. And what we do in doing 
that is enlist not just us, not just the Legislative Branch, 
not just the Executive Branch in terms of trying to police 
inefficient spending, but anybody who wants to go online, 
including the media or other folks who can go online, and the 
potential there is actually rather substantial and we are 
starting to see some payoff from that. So I hope we continue to 
do that.
    Senator Pryor. Mr. Chairman.
    Senator Carper. Yes, sir?
    Senator Pryor. Speaking of Senator Coburn, who served on 
the Debt Commission, there is a story that I have heard some of 
the Debt Commissioners say. I do not think I have heard Senator 
Coburn say it. When they sat down with the Department of 
Defense, they asked the DOD how many contracts they had and 
they could not answer that question. I do not know if that 
particular person could not answer it or if the agency just 
really does not know because it is so big, but that is a 
telling revelation. DOD is so enormous, but you just get the 
impression that they really are not on top of this. They may be 
trying, but I do not think they are there yet.
    Senator Carper. Yes, and our hands are not clean. I 
mentioned earlier in one of the hearings that we had, I think 
it was on C5M, aircraft modernization, and we were looking at 
for what extended period of time there are vacancies for some 
of these senior acquisition positions. One person said 18 
months. It was 18 months between the time his predecessor left 
and when he was confirmed on board, and once he got on board, 
he had six direct reports. Only two of them were full.
    And then the fellow, Frank Kendall, who came in and 
testified for us last month, testified I think he was waiting, 
like, 15 months to be confirmed. I mean, this system, if it is 
not broken, is mighty close to it. It is mighty close to it.
    All right. I have one last question, and if I can, this is 
a question for Mr. Zients. I think during the President's State 
of the Union Address, President Obama called for reorganization 
of the Federal Government to merge and consolidate overlapping 
and duplicative programs. He appointed you to head up these 
efforts and asked for you to report back to him in 90 days. We 
have, I think, less than a month until we hit that deadline. I 
would ask you to give us just a brief update on these efforts 
and how they are progressing, realizing you have another month 
to go. But specifically, do you think you will be able to meet 
that June 9 deadline, and what sort of report might we expect 
to hear from you at that time?
    Mr. Zients. Yes. Thank you. The place that we are focused 
initially is on trade exports and competitiveness, so those 
agencies that help businesses compete. We have spent a lot of 
time. We have done over 250 meetings with current agency 
leadership, front-line employees. In fact, we created a Web 
site for front-line employees to give their ideas on how we 
might be more efficient, more effective, and so they can share 
what is working and what is not working. We have been out and 
about with former cabinet members and agency leaders. We have 
met with GAO.
    But I think, most importantly, we have spent a lot of time 
with the customers here, which are the small, medium, and large 
businesses that call on these agencies to help them in their 
efforts to compete both domestically and abroad, and we do see 
inefficiencies. We see confusion in the marketplace. So we do 
see opportunities here to get more streamlined and to, I think, 
both be more efficient, and most importantly, more effective in 
helping businesses compete.
    Yes, we are on target to hit our June 9 deadline. We have a 
lot of work ahead, but we have a good base of facts and 
opinions to pull together for recommendations to the President.
    Senator Carper. Good. Thanks. Senator Brown.
    Senator Brown. I just have one final one, Mr. Chairman. I 
know you keep referring to the State of the Union. Do you 
remember who you sat next to?
    Senator Carper. I think I sat next to Senator Thune and 
some guy from Massachusetts. I forget his name. [Laughter.]
    It was not Kerry, though. I remember that.
    Senator Brown. I am glad you recall so much from that 
evening. [Laughter.]
    So, Mr. Dodaro, I do not want to let you feel left out 
here. I know in 2008, before the Subcommittee, GAO testified 
that only half the Federal managers reported even having 
efficiency measures. I note that we had a hearing, Senator 
Carper and I, on just the Census Bureau, how those costs rose 
from $8.2 billion in 2000 to over $13 billion in 2010, and 
actually, the results were not even as good as yesteryear.
    Are we measuring the right things? In these times of fiscal 
constraint, is it not imperative that we determine how 
efficient Federal agencies are with the taxpayer dollars, and 
how do you think we can achieve that?
    Mr. Dodaro. I think you are definitely right. I do believe 
that there needs to be more attention to the cost of delivering 
levels of performance, and this is something that we want to 
monitor, and we are going to do as part of our evaluation role 
under the Government Performance and Results Modernization Act. 
It is one thing to focus on results and see what is actually 
being delivered, but what is the cost to achieve that level of 
results and can it be achieved at a lesser cost?
    So that is definitely something that we are focused on. It 
is something that I believe the Administration needs to be 
focused on. It is why financial management reform is very 
important, because in a lot of cases, the government does not 
have reliable cost information that it needs to make those type 
of decisions.
    Senator Brown. Great. Thank you.
    Senator Carper. Gentlemen, fortunately for you, your time 
has expired.
    Mr. Zients. Thank you.
    Senator Carper. We are just deeply grateful, not just for 
your testimony today and responding to our questions, but 
really grateful for the work that you and the folks around you 
are doing.
    We are all in this together, and this is not just OMB, this 
is not just GAO, it is not just this Subcommittee. We are all 
in this together. One of the things that we need to do is just 
work like a team. I think I am encouraged to see that maybe we 
are. Hopefully, we will have to show for that results, and 
results for maybe less money, and that is what our goal is. 
Thank you so much.
    Mr. Zients. Thank you.
    Mr. Dodaro. Thank you.
    Senator Carper. Panel two. This is the panel that everybody 
has been waiting for. I am happy to see you. Thank you for 
sitting through that panel one until they finally finished up. 
No, I thought that was just a great first panel.
    The first witness on our second panel, Mr. Robert Shea, the 
former Associate Director for Administration and Government 
Performance at the Office of Management and Budget. Mr. Shea, I 
am told, led President George W. Bush's Performance Improvement 
Initiative and administered the Program Assessment Rating Tool, 
affectionately known as PART. Before that, Mr. Shea served as 
counsel to this Subcommittee. Is that true?
    Mr. Shea. That is true.
    Senator Carper. When were you counsel to this Subcommittee?
    Mr. Shea. Nineteen-ninety-seven to 2000.
    Senator Carper. OK. That was when I was laboring as 
Governor, so I did not get to work with you then, but thanks 
for your service. That was when this Subcommittee was known as 
Government Affairs and you worked with Senator Roth and a bunch 
of others, probably John Glenn----
    Mr. Shea. Senator Thompson.
    Senator Carper. Yes, there you go. Glad to see you. Thanks 
for your work then and thanks for being with us today.
    Our next witness is Dr. Paul Posner. Is it ``pose-ner''?
    Mr. Posner. Posner.
    Senator Carper. Posner. Do people ever call you ``pause-
ner''?
    Mr. Posner. They do, but it is wrong. [Laughter.]
    Senator Carper. What do you say when they do that? Do you 
correct them?
    Mr. Posner. It depends on who they are.
    Senator Carper. OK. [Laughter.]
    Well, here today, for our purposes, Dr. Posner, Professor 
and Director of the Public Administration Program at George 
Mason University. Dr. Posner is the former President of the 
American Society for Public Administration. How do you get 
elected President of that? Do you campaign? How do you do it?
    Mr. Posner. Lowest common denominator.
    Senator Carper. All right. You are not, like, selected when 
you are out of the room, is that----
    Mr. Posner. That is exactly true. Do not leave the room. 
[Laughter.]
    Senator Carper. All right. But former President of the 
American Society for Public Administration. Before entering 
academia, he worked with GAO for over 40 years.
    Mr. Posner. Fourteen.
    Senator Carper. No, I am just kidding, 14. Fourteen. Good. 
Who was Comptroller General when you were there?
    Mr. Posner. Chuck Bowsher and Dave Walker.
    Senator Carper. All right. Good. Two n'er do wells, right? 
No, they are great guys.
    Our final witness is Mr. Jonathan Breul, Executive Director 
of the IBM Center for The Business of Government. Mr. Breul 
formerly served at OMB, where he led efforts to reform 
governmentwide management policies, among other 
responsibilities. When were you there?
    Mr. Breul. Nineteen-eighty to 2002.
    Senator Carper. Oh, that is a long time. You were at OMB 
for all those years?
    Mr. Breul. Yes, indeed.
    Senator Carper. Where you saw how many Administration 
fights? There were at least three, maybe four.
    Mr. Breul. Ronald Reagan----
    Senator Carper. Reagan, so George Herbert Walker Bush, 
Clinton, and George W. Bush. That is four. You saw it all. 
Well, good. You probably heard a lot of this before and you can 
help us cut to the chase here today, so that is great.
    Gentlemen, your entire statement will be made part of the 
record and we will allow you, if you would like, just to 
summarize. If you go over 5 minutes a little bit, that will not 
be bad, but if you go over it a lot, I will have to rein you in 
so we can get done and go vote later today.
    All right. Mr. Shea, you are up first, so please proceed. 
Thanks a lot.

 STATEMENT OF ROBERT J. SHEA,\1\ FORMER ASSOCIATE DIRECTOR FOR 
   ADMINISTRATION AND GOVERNMENT PERFORMANCE, U.S. OFFICE OF 
                     MANAGEMENT AND BUDGET

    Mr. Shea. Thank you, Senator. Thanks for having us this 
afternoon. My name is Robert Shea. I am a Principal at Grant 
Thornton. Grant Thornton provides expert performance management 
advice to major Federal departments and agencies as well as 
State and local governments.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shea appears in the appendix on 
page 73.
---------------------------------------------------------------------------
    I am proud to talk about effective ways to implement the 
GPRA Modernization Act before the Subcommittee that enacted the 
first GPRA almost 20 years ago. The new law builds on progress 
made and enhances the tools we have to improve the government's 
performance. For it to be successful, though, Congress must 
ensure the Executive Branch appoints leaders who understand the 
power of performance information and are not afraid to use it 
to transform organizations. Congress should take an active role 
in ensuring the provisions of the Act are implemented urgently, 
and as intended. Agencies must be held accountable for taking 
the Act's requirements seriously and invest the time, effort, 
and resources required to make them work.
    The first GPRA was a key milestone in the transition of 
government from one that measures activities or outputs to one 
that measures outcomes and evaluates impact. Despite the 
progress, though, still not enough of our time in government is 
focused on assessing whether goals are being achieved, and if 
not, what to do about it. This new Act provides an excellent 
framework for ensuring greater focus on what works, what does 
not, and what we can do to improve.
    The most critical element in an organization's 
implementation of the Act will be leadership. In a performance 
improvement officer survey that Grant Thornton recently 
conducted in collaboration with the Partnership for Public 
Service, leadership was often cited as the key to the success 
of an agency's performance management improvement efforts. I 
have a copy of that survey for the Subcommittee should you like 
it. Leaders can ensure that initiatives like this Act will not 
become just another compliance exercise. They are in the ideal 
position to harness the energy and creativity of the workforce 
to identify improvements.
    Party loyalty and policy familiarity should take a back 
seat to questions of managerial expertise and past success when 
choosing leaders for these important positions. Leaders with 
strong experience in managing successful organizations should 
either have direct experience with or at least be able to sift 
through countless management improvement initiatives thrust on 
agencies. These abilities will enable them to put together 
accountability mechanisms that fit the environment in which 
they are working and address their highest priorities.
    There is a tendency, especially in government, not to want 
to report performance information if it will highlight failure 
or poor performance. In our political environment, the 
opposition to transparency is based in part on the fear it 
would put the organization or its political leadership in a 
negative light. But if we want to achieve important objectives, 
clear outcome oriented goals and honest, accurate, and timely 
data are critical. Congress should give agencies clear feedback 
on what goals are important and assess the timeliness, 
accuracy, and usefulness of publicly reported data.
    I hope the Committee is consulting closely with OMB on what 
guidance agencies will receive. I hope the Committee engages 
OMB in a constructive dialogue on just what it meant when it 
wrote the law and what it expects in implementation. The 
Committee should hold OMB's feet to the fire--easy for me to 
say now that I am no longer there--to ensure the tenets of the 
new law are implemented faithfully and constructively. A strong 
partnership between Congress and OMB in this implementation is 
critical.
    Using performance information and decisionmaking does not 
come naturally to the Federal Government. There is a tendency 
to measure things that are easy, but there is no limit to the 
use of reliable performance information given that Federal 
agencies have been collecting it now for so many years.
    The GPRA Modernization Act makes it clear that agencies are 
responsible for using data to manage and report in a 
transparent manner for public consumption. The quarterly review 
process can greatly improve agency attention to performance, 
but the public Web site required of the Act should include 
candid, actionable data on progress toward reported goals that 
is meaningful to the public at large.
    I want to highlight a number of Administrative initiatives 
that I think will really enhance implementation of the Act. One 
is the Administration's Administrative Flexibility Initiative, 
which has the potential to improve collaboration among like 
programs trying to serve similar constituencies. A February 
memo and OMB guidance issued last month gives detailed guidance 
to agencies on how they should identify and implement greater 
flexibility to reduce unnecessary burdens on State and local 
governments in order to improve the achievement of common 
outcomes. If implemented as intended, this initiative can 
vastly improve cross-agency and cross-government collaboration.
    Another important Obama Administration initiative is the 
one that focuses on more rigorous evaluation of program impact. 
The Evaluation Initiative promises to vastly expand the body of 
evidence we have with which to judge what works and what does 
not. Many programs, when subject to such evaluation 
methodologies, will not live up to their promise. Without such 
evidence, however, programs are implemented blindly without 
knowing their intended impact.
    In short, the Act is an important milestone in our ongoing 
quest to make government more efficient and effective. This 
Committee played an important role in GPRA's early success and 
can play an even more constructive role today. Assigning 
accountability for improved performance and outlining 
transparency requirements can go a long way toward improving 
program success. If Congress and the Executive Branch work 
together to provide active, persistent oversight, the potential 
benefits of this effort are enormous.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Mr. Shea. Dr. Posner.

STATEMENT OF PAUL L. POSNER,\1\ PROFESSOR AND DIRECTOR, PUBLIC 
        ADMINISTRATION PROGRAM, GEORGE MASON UNIVERSITY

    Mr. Posner. Thank you, Mr. Chairman. The 14 years I was at 
GAO, I led GAO's work on the Federal budget and performance 
budgeting and I had the opportunity to look over both of their 
shoulders at OMB.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Posner appears in the appendix on 
page 78.
---------------------------------------------------------------------------
    I think the first thing to say, because there is a lot of 
cynicism about government these days and always in our 
republic, is this is a success story and we should not forget 
this. The conventional wisdom is we will never make progress 
and reform is a fool's errand. We are destined to a series of 
stops and starts and reinventing things all over again. If you 
are a bureaucrat, you can hide under your desk and wait for the 
next one.
    Performance Management and budgeting has not experienced 
that. We have had 17 years, as you indicated, of sustained 
progress through three Administrations with different kinds of 
foci. The Clinton Administration initiated the reform with 
passage of GPRA. It was focused on the agencies and getting the 
plans up. The Bush period marked a new way of getting the 
President to focus on performance through his budget process. 
The Obama Administration GPRA Modernization Act is kind of 
looking more at high-priority goals and working, preparing to 
implement the Act. But each one, I think, has kept to some 
extent the momentum.
    The problem is, momentum can easily be lost. We have seen 
some real changes in places like the Coast Guard, the Food and 
Drug Administration (FDA), the Veterans Health programs that 
have saved lives because of more analytic approaches to data. 
But progress is difficult. We throw a lot of goals at agencies. 
The Forest Service has to cut wood, protect the spotted owl, 
and protect every American's God-given right to ski on Federal 
lands. Those are sometimes incompatible, and we throw that on 
agencies and expect them to come up with it and sometimes it is 
difficult to reconcile those.
    It is difficult to measure outcomes, as we know. The 
Federal Government is not like a local government. It does not 
repair potholes. It sometimes delivers the mail and Social 
Security checks, which are easy to measure, but most of the 
time, it delivers subsidies, which are leaky buckets where we 
are delivering 5 to 10 percent of the action and we are 
expecting results. And how you do that through six layers of 
delivery in our complicated system is very difficult to track 
and measure.
    So it is understandable progress is slow. It is difficult. 
It is difficult to get agreement. It is difficult to even 
specify what impact you are having, and attention is often 
diverted, and that is why I think this Modernization Act came 
at the right time, because I think, periodically, we need to 
reenergize Federal agencies and the Congress, and this, to me, 
gives an opportunity to do that.
    In doing so, I think there are going to be some balancing 
acts. In some ways, we have had the supply lead the demand. 
Federal agencies have been remarkably persistent in producing 
information, performance, and plans that we never had before, 
but at some point in time, you lose the momentum if Congress 
and the Administration and other actors in the system fail to 
use it. And I think what we are trying to do is move from a 
passive approach to a more active approach with OMB working 
more actively with agencies and, hopefully, Congress to instill 
that sense that there is somebody listening.
    I think there are tensions between different users. The 
agencies have assembled telephone books of reports that, 
frankly, lose value and interest for most of us, and somehow, 
we need to kind of reinstill the interests of top-level 
decisionmakers and policymakers in performance. We are going to 
have to, frankly, find a balance between the high-priority 
goals, which hopefully will instill interest among top-level 
people, and doing the regular work of government that is not so 
glamorous but is important with performance, as well.
    Frankly, we need a balance between different kinds of 
accountability and leadership. The Act, as has been noted, puts 
new central leadership on the point on this, with the COOs and 
the performance officials and things like that, and OMB has a 
strong role. But we also need to remember that, fundamentally, 
as you indicated, really instilling a long-term commitment to 
performance involves instilling a culture of learning and 
innovation in these agencies, and you do not do that from the 
top down. You do that from the bottom up. So how can top down 
managers instill, in some way counterintuitively, the will to 
manage, the will to change at the local level? OMB has been 
saying some good things lately about networking, about 
providing information and best practice to enable others to 
kind of manage more innovatively and things like that.
    The final point I wanted to make is the cross-cutting 
feature. This is really new, and it is something that was in 
the old GPRA Act that nobody ever did anything about and I used 
to complain about it, but now I realize, I think you have to 
crawl before you walk and run. The question is, are we ready to 
run, because, essentially, when you focus on outcomes and 
extend it through, you cannot just contain it to one agency. 
Outcomes spread across our government, it is spread across 
levels of government, the private sector, whether it is 
homeland security, food safety, and the like.
    I am working with Steve Redburn, who is here, with the New 
America Foundation, on a project we call portfolio budgeting, 
which has been done in the Netherlands and Australia, where you 
are trying to reframe the budget process away from a focus on 
agencies and programs toward the portfolios of programs and 
tools we use to achieve common goals. That is going to be a 
major undertaking. It is counterintuitive. It in some ways 
involves a personality transplant for both the budget process 
and the executive and certainly in the Congress. This involves 
first of all, focusing on a vital few areas to start the ball 
rolling, working absolutely collaboratively with the Congress 
and the Committees and OMB and facilitating those interactions, 
and integrating a look across policy tools, not just focusing 
on spending, but the tax expenditures, which, now have greater 
value than discretionary spending. So when you look at housing, 
for example, efforts to encourage housing, you have to look at 
tax expenditures and spending at the same time. We do not have 
Committees that can do that. It is very difficult even for the 
Executive Branch to bring Treasury into the OMB process to do 
that.
    How can we achieve more integration and partnership? This 
reform was initiated in the Clinton Administration where they 
attempted to initiate a management focus in budget examiners by 
eliminating the management branch. In so doing many of us 
worried that we would lose the cross cutting capacity in OMB. A 
number of us--I testified up here on the OMB 2000 back in the 
Clinton Administration, where we instilled the management focus 
really in the budget examiners and we kind of lost some of the 
cross-cutting capacity at OMB. Thanks to people like Jonathan 
Robert, they kept the light on. I think now we are starting to 
build that capacity back up. We absolutely need that to carry 
out this Act.
    And finally, ultimately, Congress, to me, is the keystone 
for making everything happen, and in my testimony, I talk about 
three models. One is collaboration, which I just talked about, 
where when OMB and the President select these cross-cutting 
goals, Congressional Committees like this one have to be at the 
table.
    No. 2 involves, oversight coordination. When we did some 
studies with GAO on State performance budgeting, one of the 
things we found, for example, in Arizona, is they had two or 
three goals that drove their whole oversight process in a given 
year. One was juvenile delinquency, and they had all their 
committees focusing on that with the goal of reauthorizing 
those programs. Obviously, we are not a State legislature here, 
but the question is can we do more to coordinate our oversight.
    And finally, the congressional budget process itself, I 
think, offers significant opportunities. It is the one time 
Congress looks at the whole picture and they use budget 
functions which are already kind of performance mission 
related. I think the question is, can we make the congressional 
budget process about performance as well as budgeting? Can we 
really integrate that in the Budget Committee? Senator Warner 
has led a task force. I think it opens up some opportunities. 
Clearly, there are tremendous tests to get these cross-cutting 
areas off the ground and sustain them. It is a real test for 
our system of government, in some sense.
    Thank you.
    Senator Carper. Well, you gave us a lot to chew on there. 
Thank you so much, Dr. Posner. All right. Mr. Breul.

  STATEMENT OF JONATHAN D. BREUL,\1\ EXECUTIVE DIRECTOR, IBM 
             CENTER FOR THE BUSINESS OF GOVERNMENT

    Mr. Breul. Thank you, Mr. Chairman. I am pleased to have 
the opportunity to talk to you this afternoon. The GPRA 
Modernization Act is an important recommitment by the Congress 
and the Administration to results-based management. It builds, 
as you noted, on the Government Performance and Results Act of 
1993, which I had a hand in developing and then had quite a 
hand in leading the governmentwide implementation at OMB for 
many years. Based on that, I want to highlight for you three 
very important arrangements that are in this new law that are 
codified for the first time.
---------------------------------------------------------------------------
    \1\ 1AThe prepared statement of Mr. Breul appears in the appendix 
on page 91.
---------------------------------------------------------------------------
    One is a significant but so far very little noticed 
provision which requires the designation of Chief Operating 
Officers. Management responsibility is now assigned to an 
agency--a position of political leadership, primarily at the 
deputy secretary level. The COO position now elevates 
management to a level where both policy and management report. 
It brings them together in a nexus where they can really get 
traction in the department. And this new provision in law now 
provides both an incentive and a discipline to seek people with 
the right qualifications for this job.
    Going forward, therefore, I think Presidential Personnel is 
going to have to be explicit about the COO's job expectations 
when they start recruiting deputy secretaries. Whenever 
possible, in addition to the substantive experience, they 
should be seeking deputies that are genuinely interested in 
management, and importantly, possess experience in managing 
very large organizations.
    A second provision that has not received much notice to 
date is one that codifies the designation of agency Performance 
Improvement Officers and statutorily authorizes the Performance 
Improvement Council (PIC). The new law codifies these positions 
and defines some duties for the Council, which is modeled on a 
number of other successful Federal management councils that are 
in operation today. With this structure, Performance 
Improvement Officers now have a platform to share best 
practices across government and the law now allows the Council 
to develop an interagency staff. And in addition, the Council 
will now assist the Director of OMB in carrying out his 
responsibilities for governmentwide planning and reporting.
    Now, if organizations treat their goals merely as words on 
paper and something used in the paper requirements for 
strategic and annual plans and they are never mentioned by 
managers, few of these goals are going to have anyone pay any 
serious attention to them. For this reason, the Act requires a 
third institutional change, which is that agency priority goals 
now have to have a clearly identified official known as the 
Goal Leader, responsible for achieving that goal. It is going 
to become the Goal Leader's responsibility to help motivate, 
cajole, and, if necessary, pressure agency officials to 
actually get on and begin achieving these results.
    And I would suggest that taking these three provisions 
together is going to be a significant step to heightening the 
profile of management improvement and providing the leadership 
needed to achieve real results in the agencies, both on an 
agency level and for the cross-cutting requirements on a 
governmentwide level.
    However, simply having these institutional structures and 
leadership is not sufficient. In the face of the mounting 
complexity, fact-based decisionmaking is going to be more 
important than ever to drive decisions. Today, most agencies 
spend more time collecting and organizing information than they 
do analyzing it.
    A recent report that Robert mentioned indicates from a 
Performance Improvement Officer in one agency, quote, ``We are 
good at collecting data, but not so good at analyzing it.'' 
Analytics competency is a game-changing management innovation. 
It consists of tools and techniques to make data consumable, 
insightful, and predictive. It enables smarter decisions and 
consequential actions that improve results.
    I would suggest that with help from OMB and Congress, 
agencies need help to build their performance management 
capacity, including embracing analytics as a core management 
capacity.
    As you know, Senator, mismanagement is often the only type 
of management that gets attention on its own. Good government 
efforts usually remain hidden in relative obscurity. Persistent 
attention and persistent followup is going to be required to 
build on the new Act and to make performance management and 
performance information useful and used. The Administration 
cannot improve the Federal Government's performance and 
accountability on its own. It is a shared responsibility and it 
must involve the Congress.
    Thank you, and I would be happy to answer your questions.
    Senator Carper. Thanks so much.
    It is unfortunate that my colleagues had to leave. They are 
also on other Committees and Subcommittees and other hearings 
are going on. It is unfortunate they could not be here to hear 
the testimony from the three of you. This has been just really 
quite helpful to me.
    What I am going to ask you to do is maybe a few things 
here. One is I want each of you to take a moment or two--a 
minute or two--and reflect on what you have heard your 
colleagues here say, and I want you to reflect back on what 
earlier we heard Mr. Zients and our Comptroller General say, 
anything there that comes to mind that you think you would just 
like to kind of maybe reinforce, maybe question, maybe modify. 
But let me ask you to just reflect on what others have said, 
either at this table now or in the previous panel, please. Mr. 
Shea, do you want to go first?
    Mr. Shea. Yes, sir. Thank you.
    Senator Carper. Maybe some things you want to emphasize----
    Mr. Shea. Right. Well, I think Paul's point that this is a 
success story is important. A lot of folks have invested a 
great deal of energy articulating the outcomes that they are 
trying to achieve. You have to remember what a sea change that 
is from when the Government Performance and Results Act was 
first enacted. People were counting regulations issued, hours 
worked, memos issued, things that really did not relate to what 
you were trying to achieve, and now you have an environment in 
which people at least know what direction it is they are 
supposed to be rowing and now we can be more sophisticated in 
how we evaluate whether or not we are getting there, and if 
not, what we can do to get there quicker and cheaper.
    The Comptroller General made a point about the very few 
number of programs that have been rigorously evaluated, and I 
think that is a little misleading, because if we wanted to 
rigorously evaluate all the programs in existence tomorrow, it 
would be prohibitively expensive and take decades to get 
results. So you really have to pick what programs you are going 
to assess with that kind of rigor.
    I highlight in my testimony the importance of the 
Administration's rigorous evaluation initiative, and that is 
isolating what you are doing--what we are doing from a lot of 
other factors so you can say definitively whether what we are 
doing is having the intended impact. We have very little of 
that today. As a result of this initiative, we will have a lot 
more, and hopefully we can build onto that and have even a lot 
more so that we can really highlight those few precious 
programs that we can say, beyond a shadow of a doubt, are 
working.
    And I think in the end, you will have dozens of the 
thousands of programs in existence that can say they are 
working like that. And you might be pessimistic about that, but 
you can also say that information is invaluable, because that 
information can really help you impact some of the most 
intractable problems that our Nation faces.
    Senator Carper. All right. Thank you. Dr. Posner.
    Mr. Posner. Well, I am struck by something Jonathan said, 
that we focus exclusively on mismanagement rather than 
management, and I think that is right. What we have as a 
culture that emphasized the urgent as opposed to the important, 
and I think that is why what Robert said is important. Those of 
us who have institutional knowledge and information on cross 
cutting management issues have a responsibility to preserve and 
share our perspectives because at some point in time, there 
will suddenly be a need for that information in the process.
    And so the tension is how do you anticipate the needs of 
decisionmakers without getting demoralized. I used to try to 
have to keep my staff's morale up when we issued a GAO report. 
Occasionally, we would call it an Olympic diver. It was 
beautiful, but made no splash. I would tell them sometimes 6 
years passes before this report might be used.
    Being a professional manager in Washington involves partly 
reacting to crises but also anticipating the next crisis by 
being proactive in thinking around corners and developing 
information and reports that might not be useful for several 
years.
    Senator Carper. Thanks. Mr. Breul.
    Mr. Breul. Senator, I was struck by two statements or 
thoughts in all of the previous comments. The first is that we 
are really on the right track here. The GPRA had the right 
intentions and it has just simply been harder to do than we had 
anticipated. And more importantly, that the new Act, the 
Modernization Act, did not reject or cancel the old effort or 
the old progress and push the reset button and go back to zero, 
but actually, it was a recommitment to buildupon it, and I 
think that is a huge note of optimism and a very constructive 
step and I thought I heard that throughout all the previous 
comments.
    But the second, and perhaps most important for you, is the 
notion that I heard in everyone else's comments, that Congress 
has a role here and an important role, that this is not just a 
matter that is up to the agencies, but the use of this 
information and attention and persistent followup is something 
Congress has a role in, as well, and I think that is a very 
positive sign, as well.
    Senator Carper. Mr. Shea, go ahead.
    Mr. Shea. If you will indulge me to add, I think this 
Subcommittee in particular has a model to follow which every 
other Committee should emulate, and that is security clearance 
reform. GAO highlighted it as a high risk. The Committee 
enacted legislation that set very clear and aggressive targets 
in the interim and final for the improvement of that effort. 
And it worked--you had more hearings on that topic than, I 
believe, any other, to monitor progress and hold people's feet 
to the fire.
    OMB led that interagency effort. I was heavily involved 
while I was at OMB. And let me tell you what. Some of the most 
volatile, vicious interagency meetings I have ever participated 
with. We had to strategize about where people were going to sit 
so that people did not get killed before the end of the 
meeting. [Laughter.]
    Unfortunately, that is a model for collaborative oversight 
of Congress and the Executive Branch to achieve an outcome, and 
it worked. That effort is not over, obviously. You should 
continue to monitor it. But I think if you take a handful of 
areas and apply that same methodology, you will see some of the 
same success.
    Senator Carper. Well, good. I wish Senator Akaka and 
Senator Voinovich were here to hear you say that, but thank you 
very, very much for those words.
    Anybody else for some comments on how the Legislative 
Branch can be most constructive in this process? As I said 
earlier, we are in this together and it is not--please.
    Mr. Breul. Senator, there are a number of questions that 
are still, in my mind, very open, and I have not heard much 
details on to date. But the Act now requires the Office of 
Management and Budget to be serious about a governmentwide 
performance plan. We did issue one for a year or two in the 
early 1990's, but that sort of disappeared. And it further 
requires Federal priority goals, cross-cutting kinds of goals. 
And there is a requirement for consultation by OMB with a 
series of Committees up here in the Congress.
    What is unclear is exactly how that will happen. One of my 
colleagues joked 1 day that when the budget is prepared next 
February, the Director is going to go downstairs and get in his 
limo and tell the driver to drive to the Congress. He is going 
to go up and do his consultation. And the driver will turn 
around to him and say, ``Where should I go to first?'' And it 
is not clear which Committee or which member or exactly how 
that process would unfold.
    It seems to me it is an important way to start thinking, 
and perhaps some leadership from this Subcommittee on how that 
might happen and how it might be coordinated in a way that 
would provide the kind of support that OMB needs and the kind 
of input the Congress should be providing.
    Senator Carper. All right. Yes, Dr. Posner.
    Mr. Posner. I think all these things are important. I think 
we have to look inwardly to our institutions to determine 
whether we are ready for collaboration. In the budget era, 
Congress has developed effective institutions and rules to 
coordinate its positions in negotiations with the White House 
when it comes to the question is whether performance has risen 
to the level that the performance budget has--whether Congress 
can similarly coordinate its performance and oversight agenda 
for work collaboratively with the President on cross cutting 
issues.
    From OMB's standpoint, there is also a question whether the 
budget process will be sufficiently open to invite to Congress 
into the determination and formulation of cross cutting goals. 
Input into that process is considered pre-decisional, and that 
includes performance plans. In years past, it has been 
difficult, and that is one of the kind of challenges of 
marrying performance and budgeting. Performance is long-term, 
broader, open. Budgeting tends to be important, but closed and 
focused on budget line items and accounts. When you blend the 
two, what is going to come out of the blender?
    And this is not just true in Washington, it is true in the 
States, as well, that budgeting tends to prevail in these kinds 
of situations. So this is a real challenge to these 
institutions at the real heart of what they are all about and 
it will change the way they do their business, I think, if we 
can pull it off.
    Senator Carper. Sitting here, I am going back in time a 
little bit when I was privileged to, in my last job as Governor 
of Delaware, we said early on our overarching goal for our 
Administration, that I was privileged to serve for 8 years in 
that role, but our overall goal was to strengthen the basic 
building block of our society, our families. And I used to say 
that if every kid had at least one, maybe two, loving, caring, 
involved parents nurturing those kids, making sure that they 
were prepared to start kindergarten at the age of five and 
making sure that the parents were involved in the education of 
their children, being good role models, we had that going for 
us, the rest is pretty easy. And for 8 years, that is what we 
focused on.
    And one of the things that we did, we created an idea 
suggested by Tom Eichler, who was our Secretary of what we 
called the Department of Children, Youth, and Families. We 
called it the Kids Department. But he said, maybe we should 
have an interdepartmental cabinet council with all the 
departments within our State government--and it turned out to 
be seven--that are literally used, touch every day families in 
a very direct way in terms of education, in terms of health, in 
terms of corrections, job creation, you name it. And every 
month for the better part of 7 years, every month, I met with 
my cabinet secretaries, and once a month, they met without me, 
with senior staff in the Governor's office. But we just focused 
on what can we do to strengthen families.
    I thought it was the smartest thing that we did. I think it 
was the smartest thing that we did. You can do that in a little 
State with less than a million people. But it required, in 
terms of going up through stovepipes, we did a great job of 
knocking them down, and it sort of encouraged us to use that 
Center for Best Practices that was in the National Governors 
Association to see what was working in other States to reduce 
teen pregnancy, to reduce dropout rates, to do just all kinds 
of positive things.
    One of my hopes is that the current Administration--we have 
a fairly new Governor, he is in his second year--third year, 
actually, now--that somehow that idea of the Family Services 
Cabinet Council might be resurrected.
    I think it was Dr. Posner who talked about the Federal 
Government really being a small dollar participant in a lot of 
initiatives that we are trying to do nationwide. That is 
especially true with respect to education. I think in my State, 
for every dollar that we spend on education, probably about 70 
percent of the funds come from the State. Unlike most places, 
70 percent comes from the State. Twenty or 25 percent come from 
local property taxes. The Federal Government is only 5, maybe 
10 percent of the remainder.
    Arne Duncan, our Secretary of Education, has somehow 
figured out how to leverage that 5 or 10 percent in amazing 
ways to drive, I think, performance and to get us focused not 
on process but on results. Pretty amazing. I do not know if 
there is some way that we can maybe use that approach as a 
model in other parts of the government. I would just lay that 
at your feet and ask you to comment.
    Mr. Posner. There are other agencies that are considering 
that model, Transportation, for example, Housing, because it 
has been so successful. I would point that it has been 
successful in a moment of time when the States were desperate 
for money and they were largely in agreement with the Federal 
agenda. I think since this past January, States are still 
desperate for money, but I think you see States now kind of 
peeling away from that agenda and reconsidering the original 
bargains that they made. So I think that the environment is 
changing.
    But in some ways, you have to--it brings you back to the 
Great Society of Lyndon Johnson, which he called creative 
federalism, where the government used State and local 
governments, but very adroitly managed these competitive grant 
funds to really shine the light on critical national problems 
and with very small money leveraged a lot of change.
    A lot of development has occurred at the Federal level on 
managing Federal employees and managing Federal assets and 
direct Federal operations. This idea of bringing partners 
together around goals and metrics and areas where the Federal 
influence is far more indirect is a real future challenge.
    One of the areas in particular is tax expenditures. The 
original GPRA required tax expenditures to be covered, and 
frankly, that has been one of the disappointments so far. And 
it is difficult to do. Tax expenditures are very leaky bucket, 
whether you are talking about the mortgage deduction, or higher 
education tax credits. We do not really look at the impact of 
these subsidies on the behavior we are trying to stimulate 
because it is so difficult because we are so far removed.
    Senator Carper. All right. Mr. Shea.
    Mr. Shea. I think the education reform is something to 
study in many respects. First and foremost, I think, is the 
bipartisan collaboration in Congress with the Executive Branch 
on these reforms, and that is a 20-year collaboration.
    I also think the Department of Education (DOE) has one of 
the most mature entities that invests in real research on the 
impact of the various interventions going on to improve 
education throughout the Nation. So those two things, I think, 
enhance the chances that this race to the top program would be 
successful and is something worthy of greater study and 
emulation throughout the government.
    Senator Carper. Good. Thanks.
    I think it was David Osborne in his book--what is that book 
he wrote in the early 1990's--Reinventing Government. 
Reinventing Government. I think one of his central premises was 
that the role of government is to steer the boat, not row the 
boat, and I think with the Race to the Top, I think that is 
being realized, or at least I would like to think so. And I say 
that as a recovered Governor of a State that won the race to 
the top, at least the first leg of it.
    Let me change the focus here. If I do not ask these 
questions, John Collins is going to shoot me, and so I am going 
to go back a little more on script here and make sure we do not 
overlook these questions.
    As you know, the new law that was passed and signed by the 
President asks agencies to break down their operational silos 
and to come together on government priorities and efforts that 
cut across Federal agencies. How do you believe this new law 
can be implemented to address concerns about cross-cutting 
policy areas and potential for unnecessary overlap or 
duplication, including possible cost savings? We have already 
talked around this, but I am going to ask you to just come to 
that straight, directly, if you will, please.
    Mr. Shea. I am skeptical that we will be able to reduce a 
lot of duplication in government by consolidating programs. 
There may be some outright elimination. But I think the Act 
actually provides a better framework for improving efficiency 
by enhancing collaboration among duplicative programs.
    The Administration's effort is focused in the trade area, 
and I think that is important. The Act takes a broader look, I 
think, across government, and I, frankly, think that the 
Administration's Administrative Flexibility Initiative ought to 
be swept into GPRA Modernization Act implementation, because it 
says what they are doing is that OMB has to inventory 
duplicative programs and find ways that those programs can 
reduce burden on State and local governments by consolidating 
funding streams, eliminating duplicative or sometimes 
inconsistent audit requirements. All that should bring the cost 
of government down and actually enhance the performance of 
those activities.
    Senator Carper. OK. Thank you.
    Another comment? Dr. Posner.
    Mr. Posner. If I could just build on your point about your 
Family Council, I think it is important that we have the vital 
few, we select a handful, because it is going to need a lot of 
leverage from the President himself to get anything done, as 
well as up here. And so the fewer we concentrate on, the 
greater chance that he will be able to personally invest 
himself in it.
    Senator Carper. Mr. Breul.
    Mr. Breul. Senator, I would keep an eye on the requirement 
for Goal Leaders. It seems to me that is an opportunity where 
you can put someone sort of as a trail boss on a particular 
goal or effort across departments and therein, I think, have an 
opportunity to make some improvements in both efficiency and, 
importantly, effectiveness.
    In my mind, a lot of the savings and improvements that are 
going to be possible are by removing a lot of the redundancy 
and complexity within programs. It is not just the programs 
themselves as an entire line item, but the operations within 
each of these programs, and if you have this Goal Leader who 
can harmonize the way the agencies are approaching these 
problems, a lot of the redundant behaviors or single action 
costs and activities in different organizations can be 
eliminated and consolidated in a way that has enormous 
improvements in terms of time, service, cost, and ultimately 
program effectiveness. That is going to be nitty-gritty hard 
work, but again, if you have someone inside who has some 
leadership responsibilities, the potential there is huge.
    Senator Carper. All right. Thanks. Dr. Posner.
    Mr. Posner. Just one more. I think and part of that process 
Jonathan is talking about is it would be helpful to have an 
implementation map that shows a spaghetti chart of how each of 
those funding streams percolates down through our system. And 
when we did that, for example, for first responder training, 21 
programs that I testified on a few years ago, some went to the 
States. Some went directly to fire chiefs. Some went directly 
to police chiefs. Some went to mayors. I mean, it was a crazy 
quilt pattern. So part of that is understanding, what impact 
does that fragmentation have at the service delivery point, and 
that is not easy stuff to do, but it is vital.
    Senator Carper. All right. Thanks. Mr. Shea.
    Mr. Shea. Yes, just to add one more point, Congress has 
authorized $70 million to be spent on the development of a key 
national indicator system. Stateoftheusa.org is developing a 
set of data points for a handful of major areas that can be 
used to gauge the health of the Nation in health, education, a 
number of areas. The Committee might look to that as a 
framework for inventorying the government's programs, mapping 
them to that, so that at least you have a credible data source 
with which to assess the success of the overall enterprise.
    Senator Carper. All right. Thank you.
    I mentioned to the first panel an interest that a number of 
us have had, Russ Feingold for a number of years, John McCain 
and myself, John Kerry, as well, to strengthening the 
President's rescission powers, and I offered legislation in the 
House in 1992, my last year in the House, to take what I call a 
2-year test drive with enhanced rescission powers for the 
President and to, for 2 years, give the President the ability 
to propose rescissions that were somewhat constrained. Nothing 
involved rescissions on entitlement programs. Nothing involved 
the rescissions with respect to tax policy, but just focused on 
domestic discretionary spending, defense spending, and actually 
providing some constraints as to how much the President could 
do there, but be able for 2 years to suggest rescissions and 
the Congress would have to vote on it.
    They could vote it down, a simple majority in either the 
House or Senate, and the responsibility--it was 
constitutionally sound because that is the approach we took, 
that it was not like you needed a two-thirds override by the 
House and Senate to override the President's proposed 
rescissions. That was declared unconstitutional later on. But 
to say that the rescission comes, we have to vote on it. And if 
either the House or Senate muster a majority vote, a simple 
majority vote, against the rescission, it is dead. It does not 
take place.
    We have updated that, and Senator McCain and I--Russ 
Feingold worked on this before with us--but say, let us do a 4-
year test drive, and the 4-year test drive would, again, not 
get us into entitlements. It would not get us into tax policy. 
But it would enable us to go into domestic discretionary 
spending, defense spending, and we do it for 4 years and with 
fewer constraints so that the President could actually propose 
rescissions which would rescind as much as 100 percent of 
certain kinds of programs.
    And I think when we are looking at these issues today, I am 
just reminded, I think this actually might be a more valuable 
tool than I had considered. It may even be more valuable than I 
thought. We would not do it forever. We would not make it 
permanent. We would do it for 4 years, see how it works. If 
Presidents abuse it, then they will lose it.
    But let me just ask you to reflect on that for a moment, if 
you would, please. Mr. Shea.
    Mr. Shea. At the risk of getting into budget issues next to 
the Nation's top budgeting expert, I will wade in here. I do 
not think it is as controversial as you might even think if you 
look at the amount of unobligated balances that remain at the 
end of a Fiscal Year (FY) or even at the beginning, in 
September of any fiscal year. I think if you benchmark an 
amount of rescission authority to that, then you are basically 
saying, what you were not otherwise going to spend, the 
President should rescind. So I do think it has some merit for 
savings, I want to say marginal, but they would certainly equal 
the amount that was just in controversy a few months ago.
    Senator Carper. All right. Dr. Posner.
    Mr. Posner. I mean, I think the expedited rescission is 
what we call it, I think, versus enhanced. I think you are 
right. The enhanced, I think, goes too far in giving away the 
congressional powers.
    Senator Carper. No, we are talking about expedited.
    Mr. Posner. Expedited, makes some sense, and you force an 
up and down vote. Again, I am not sure if it is kind of the 
answer to the broader problems we are talking about here. At 
one point, the President could do this with reorganization. He 
could propose a reorganization plan. The Congress would have to 
vote up and down, right, or in some cases, did it not actually 
get----
    Mr. Breul. Before Chadha.
    Mr. Posner. Yes, before Chadha, it was a one-House veto, 
which we cannot do anymore. So theoretically, that same concept 
could be used to package proposals for consolidations and the 
like that come from these cross-cutting reviews. But I think 
that is running at a very fast speed and we have to first--so I 
think what you are proposing is useful for a period. However, 
someone in the appropriations process once, though, told me a 
valuable lesson. He said, you can do anything in budgeting 
once. And so the item veto, for example, as you said with 
Clinton, the President got to do some things the first year. 
The second year, let us just say, Congress has equal and 
opposite reactions that in some ways counterbalance that.
    Senator Carper. Thank you. Mr. Breul.
    Mr. Breul. The interesting question to me is whether you 
would attach to it as a condition of performance and make some 
failure or disappointment in performance the qualifying factor 
for those actions. That would make it even more intriguing, it 
seems to me, and make it not simply a budget matter, but also 
one that hinged on whether we were getting results for those 
dollars.
    Senator Carper. OK. John Collins just handed me a note. He 
says, ``I think we can wrap it up whenever you are ready.'' I 
am just having too much fun to stop, but we have other things 
to do and I know you do, as well.
    Let me ask each of you just to take a moment to just give 
us a summary, something you would like for us to really 
emphasize, some take-aways for me and for my colleagues, for 
our staff, anything that comes to mind. It could be something 
you have already said, if you just want to say it again or 
maybe say it a little differently, but just some good take-
aways for us. I do not care who goes first. Mr. Breul, do you 
want to go first?
    Mr. Breul. I think you heard from a number of speakers, Mr. 
Dodaro and Jeff Zients, that accenting the positive is perhaps 
the strongest way to move some of this forward. So I would----
    Senator Carper. We actually tried to do that in the 
Subcommittee. We brought in our Director of the Census when we 
actually got things straightened out and did a much better job 
in the last year or so. So we try to do that from time to time. 
I agree with you. We cannot just always ``gotcha'' and 
embarrass----
    Mr. Breul. So perhaps with some of these new positions that 
have been codified, whether it is the Chief Operating Officer 
or perhaps the Performance Improvement Officers, bringing some 
of them in for a bit of attention and to showcase good progress 
and show best practice to some of the others might be a way of 
showing the recommitment of Congress and giving this a positive 
boost along the way.
    Senator Carper. All right. Thanks. Dr. Posner.
    Mr. Posner. I think you can use the budget situation we are 
in as a possible kind of window of opportunity, and working 
with the Budget Committees, obviously, to at least have a 
portion of that budget process and, say, a reconciliation 
focused on performance, where the Committees would have to be 
doing some--where the Budget Committees would outline an agenda 
with you of performance goals that you want the Committees to 
work toward as they kind of put reconciliation savings packages 
together, the idea being that you are not just kind of cutting 
all the blades of grass equally. You are targeting cuts on the 
programs that, as one Budget Director said at one time, we 
should be focusing on weak claims, not weak claimants when we 
do budgeting, and I think this tool and this Act enables you to 
do that.
    Senator Carper. Before I go to Mr. Shea, I would say there 
are four ways to reduce budget deficits. No. 1, cut spending. 
No. 2, raise taxes. No. 3, grow the heck out of the economy. 
And No. 4, really change our culture around here to show that 
we are looking at every nook and cranny of the Federal 
Government, looking at all of our programs, domestic 
discretionary, entitlements, and saying, is there a way to get 
better results for less money. It really moves us toward a 
culture of thrift.
    The President said in his State of the Union Address, I 
believe he said if America wants to win the 21st century, we 
have to out-educate, out-innovate, out-compete the rest of the 
world, and that seems to suggest, at least to me, that as we 
trim back on spending, we find ways in order to grow the 
economy, to invest money in ways that actually do move us 
toward a more productive workforce, invest in ways that 
actually provide us a more efficient infrastructure, broadly 
defined. And also invest in Research and Development (R&D) that 
actually--not just government, but encourage investment in R&D 
that has commercial application that will enable us to develop 
innovations and products that we can sell all over the world. 
Those are three things that would seem to me to make a lot of 
sense.
    Mr. Shea. And one other thing you said that I had actually 
written down earlier in my testimony--while you all were 
testifying--one of my favorite quotes, and it is Albert 
Einstein. ``In adversity lies opportunity.'' ``In adversity 
lies opportunity.'' I like to say I have made a life of that in 
almost everything that I have done. And there is a heck of a 
lot of adversity right now, but there is actually opportunity 
here, as well, as we are learning. Mr. Shea.
    Mr. Shea. I would hope that this Committee takes a strong 
leadership role in working with OMB to implement the law, to 
ensure that it is implemented to your satisfaction, that it is 
implemented aggressively, that you review the qualifications of 
the leaders who are chosen for the positions articulated in the 
bill, and that they are actually doing what it is you hoped 
they would, which is using data to manage and improve 
operations, and that the data is transparent enough for you to 
be able to hold them accountable for that.
    Senator Carper. All right. Thanks a lot.
    I spent about 23 years of my life as a Naval flight 
officer, retired Navy Captain, and was a P-3 mission commander, 
the aircraft that we used to hunt for Red October, flew a 
missions off of Vietnam and Cambodia during that war, did a lot 
of ocean surveillance, saw the oceans of the world. It was 
great fun chasing those Russian subs, catching them sometimes.
    But our airplanes were too big to land on aircraft 
carriers. That is one of the reasons I wanted to be on them. 
That way, we could land on land and go home at night, or at 
least go home to our quarters. But I still like to use a Navy 
term and that is changing the course of the aircraft carrier. 
It is a hard thing to do and it takes the efforts of a whole 
team to be able to change the course of an aircraft carrier.
    The Federal Government is much bigger than any aircraft 
carrier. It is really tough to change course. I think we are 
trying to get the team pulling together, and I am encouraged it 
may be starting to happen. We still have too many members of 
the team that are, I will not say AWOL, they have just never 
been added to the team. We have what I call Executive Branch 
Swiss cheese. There are still at this point in this 
Administration way too many positions that are still vacant, 
key positions that need to be filled, and my hope is that we 
are going to use in this adversity some opportunity to actually 
fix that and reduce the number of confirmable positions that 
exist in the Executive Branch, which would be very, very good.
    But this has been a wonderful hearing and I appreciate, 
really, for those of you who have labored in these vineyards in 
the past, I appreciate very much your past service and for your 
willingness today to help us slave more effectively and 
constructively going ahead. But we are much appreciative of 
your help in this regard.
    We look forward to the challenge that lies ahead of us. We 
will work hard to get better results for less money. Thanks so 
much.
    And with that, to our staff on both sides, Democrat and 
Republican who have worked to help get us to this day, our 
special thanks to that.
    All right. And with that, this hearing is adjourned. Thank 
you all.
    [Whereupon, at 4:49 p.m., the Subcommittees were 
adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7636.001

[GRAPHIC] [TIFF OMITTED] T7636.002

[GRAPHIC] [TIFF OMITTED] T7636.003

[GRAPHIC] [TIFF OMITTED] T7636.004

[GRAPHIC] [TIFF OMITTED] T7636.005

[GRAPHIC] [TIFF OMITTED] T7636.006

[GRAPHIC] [TIFF OMITTED] T7636.007

[GRAPHIC] [TIFF OMITTED] T7636.008

[GRAPHIC] [TIFF OMITTED] T7636.009

[GRAPHIC] [TIFF OMITTED] T7636.010

[GRAPHIC] [TIFF OMITTED] T7636.011

[GRAPHIC] [TIFF OMITTED] T7636.012

[GRAPHIC] [TIFF OMITTED] T7636.013

[GRAPHIC] [TIFF OMITTED] T7636.014

[GRAPHIC] [TIFF OMITTED] T7636.015

[GRAPHIC] [TIFF OMITTED] T7636.016

[GRAPHIC] [TIFF OMITTED] T7636.017

[GRAPHIC] [TIFF OMITTED] T7636.018

[GRAPHIC] [TIFF OMITTED] T7636.019

[GRAPHIC] [TIFF OMITTED] T7636.020

[GRAPHIC] [TIFF OMITTED] T7636.021

[GRAPHIC] [TIFF OMITTED] T7636.022

[GRAPHIC] [TIFF OMITTED] T7636.023

[GRAPHIC] [TIFF OMITTED] T7636.024

[GRAPHIC] [TIFF OMITTED] T7636.025

[GRAPHIC] [TIFF OMITTED] T7636.026

[GRAPHIC] [TIFF OMITTED] T7636.027

[GRAPHIC] [TIFF OMITTED] T7636.028

[GRAPHIC] [TIFF OMITTED] T7636.029

[GRAPHIC] [TIFF OMITTED] T7636.030

[GRAPHIC] [TIFF OMITTED] T7636.031

[GRAPHIC] [TIFF OMITTED] T7636.032

[GRAPHIC] [TIFF OMITTED] T7636.033

[GRAPHIC] [TIFF OMITTED] T7636.034

[GRAPHIC] [TIFF OMITTED] T7636.035

[GRAPHIC] [TIFF OMITTED] T7636.036

[GRAPHIC] [TIFF OMITTED] T7636.037

[GRAPHIC] [TIFF OMITTED] T7636.038

[GRAPHIC] [TIFF OMITTED] T7636.039

[GRAPHIC] [TIFF OMITTED] T7636.040

[GRAPHIC] [TIFF OMITTED] T7636.041

[GRAPHIC] [TIFF OMITTED] T7636.042

[GRAPHIC] [TIFF OMITTED] T7636.043

[GRAPHIC] [TIFF OMITTED] T7636.044

[GRAPHIC] [TIFF OMITTED] T7636.045

[GRAPHIC] [TIFF OMITTED] T7636.046

[GRAPHIC] [TIFF OMITTED] T7636.047

[GRAPHIC] [TIFF OMITTED] T7636.048

[GRAPHIC] [TIFF OMITTED] T7636.049

[GRAPHIC] [TIFF OMITTED] T7636.050

[GRAPHIC] [TIFF OMITTED] T7636.051

[GRAPHIC] [TIFF OMITTED] T7636.052

[GRAPHIC] [TIFF OMITTED] T7636.053

[GRAPHIC] [TIFF OMITTED] T7636.054

[GRAPHIC] [TIFF OMITTED] T7636.055

[GRAPHIC] [TIFF OMITTED] T7636.056

[GRAPHIC] [TIFF OMITTED] T7636.057

[GRAPHIC] [TIFF OMITTED] T7636.058

[GRAPHIC] [TIFF OMITTED] T7636.059

[GRAPHIC] [TIFF OMITTED] T7636.060

[GRAPHIC] [TIFF OMITTED] T7636.061

[GRAPHIC] [TIFF OMITTED] T7636.062

[GRAPHIC] [TIFF OMITTED] T7636.063

[GRAPHIC] [TIFF OMITTED] T7636.064

[GRAPHIC] [TIFF OMITTED] T7636.065

[GRAPHIC] [TIFF OMITTED] T7636.066

[GRAPHIC] [TIFF OMITTED] T7636.067

[GRAPHIC] [TIFF OMITTED] T7636.068

[GRAPHIC] [TIFF OMITTED] T7636.069

[GRAPHIC] [TIFF OMITTED] T7636.070

[GRAPHIC] [TIFF OMITTED] T7636.071

[GRAPHIC] [TIFF OMITTED] T7636.072

[GRAPHIC] [TIFF OMITTED] T7636.073

[GRAPHIC] [TIFF OMITTED] T7636.074

[GRAPHIC] [TIFF OMITTED] T7636.075

[GRAPHIC] [TIFF OMITTED] T7636.076

[GRAPHIC] [TIFF OMITTED] T7636.077

[GRAPHIC] [TIFF OMITTED] T7636.078

[GRAPHIC] [TIFF OMITTED] T7636.079

[GRAPHIC] [TIFF OMITTED] T7636.080

[GRAPHIC] [TIFF OMITTED] T7636.081

[GRAPHIC] [TIFF OMITTED] T7636.082

[GRAPHIC] [TIFF OMITTED] T7636.083

[GRAPHIC] [TIFF OMITTED] T7636.084

[GRAPHIC] [TIFF OMITTED] T7636.085

[GRAPHIC] [TIFF OMITTED] T7636.086

[GRAPHIC] [TIFF OMITTED] T7636.087

[GRAPHIC] [TIFF OMITTED] T7636.088

[GRAPHIC] [TIFF OMITTED] T7636.089

[GRAPHIC] [TIFF OMITTED] T7636.090

[GRAPHIC] [TIFF OMITTED] T7636.091

[GRAPHIC] [TIFF OMITTED] T7636.092

[GRAPHIC] [TIFF OMITTED] T7636.093

[GRAPHIC] [TIFF OMITTED] T7636.094

[GRAPHIC] [TIFF OMITTED] T7636.095

[GRAPHIC] [TIFF OMITTED] T7636.096

[GRAPHIC] [TIFF OMITTED] T7636.097

[GRAPHIC] [TIFF OMITTED] T7636.098

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
